<html>
<title> - EXAMINING THE PLIGHT OF REFUGEES: THE CASE OF NORTH KOREA</title>
<body><pre>[Senate Hearing 107-924]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-924
 
       EXAMINING THE PLIGHT OF REFUGEES: THE CASE OF NORTH KOREA
=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON IMMIGRATION

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 21, 2002

                               __________

                          Serial No. J-107-88

                               __________

         Printed for the use of the Committee on the Judiciary









                       U. S. GOVERNMENT PRINTING OFFICE
86-829                          WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001





                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ORRIN G. HATCH, Utah
JOSEPH R. BIDEN, Jr., Delaware       STROM THURMOND, South Carolina
HERBERT KOHL, Wisconsin              CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ARLEN SPECTER, Pennsylvania
RUSSELL D. FEINGOLD, Wisconsin       JON KYL, Arizona
CHARLES E. SCHUMER, New York         MIKE DeWINE, Ohio
RICHARD J. DURBIN, Illinois          JEFF SESSIONS, Alabama
MARIA CANTWELL, Washington           SAM BROWNBACK, Kansas
JOHN EDWARDS, North Carolina         MITCH McCONNELL, Kentucky
       Bruce A. Cohen, Majority Chief Counsel and Staff Director
                  Sharon Prost, Minority Chief Counsel
                Makan Delrahim, Minority Staff Director
                                 ------                                



                      Subcommittee on Immigration

               EDWARD M. KENNEDY, Massachusetts, Chairman
DIANNE FEINSTEIN, California         SAM BROWNBACK, Kansas
CHARLES E. SCHUMER, New York         ARLEN SPECTER, Pennsylvania
RICHARD J. DURBIN, Illinois          CHARLES E. GRASSLEY, Iowa
MARIA CANTWELL, Washington           JON KYL, Arizona
JOHN EDWARDS, North Carolina         MIKE DeWINE, Ohio
                 Melody Barnes, Majority Chief Counsel
                Stuart Anderson, Minority Chief Counsel




                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Brownback, Hon. Sam, a U.S. Senator from the State of Kansas.....     2
    prepared statement...........................................    53
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts..................................................     1

                               WITNESSES

Allen, Hon. George, a U.S. Senator from the State of Virginia....    12
Dewey, Arthur E., Assistant Secretary of State, Bureau of 
  Population, Refugees, and Migration, Department of State, 
  Washington, D.C.; accompanied by Lorne Craner, Assistant 
  Secretary of State, Bureau of Democracy, Human Rights, and 
  Labor, Department of State, Washington, D.C.; and James Kelly, 
  Assistant Secretary of State for East Asian and Pacific 
  Affairs, Department of State, Washington, D.C..................     5
Gaer, Felice D., Commissioner, United States Commission on 
  International Religious Freedom, Washington, D.C...............    32
Lee, Helie, West Hollywood, California...........................    19
Lee, Sun-ok, North Korean Prison Camp Survivor, Seoul, South 
  Korea..........................................................    16
Liang-Fenton, Debra, Vice Chairman, U.S. Committee for Human 
  Rights in North Korea, Minneapolis, Minnesota..................    34
Mason, Jana, Asia Policy Analyst, U.S. Committee on Refugees, 
  Washington, D.C................................................    38
Massimino, Elisa, Lawyers Committee for Human Rights, Washington, 
  D.C............................................................    42
Vollertsen, Norbert, M.D., Seoul, South Korea....................    23

                       SUBMISSIONS FOR THE RECORD

Allen, Hon. George, a U.S. Senator from the State of Virginia, 
  prepared statement.............................................    48
Defense Forum Foundation, Suzanne Scholte, President, Falls 
  Church, Virginia, statement and attachments....................    59
Dewey, Arthur E., Assistant Secretary of State, Bureau of 
  Population, Refugees, and Migration, Department of State, 
  Washington, D.C., statement....................................    72
Gaer, Felice D., Commissioner, United States Commission on 
  International Religious Freedom, Washington, D.C., statement 
  and attachment.................................................    75
Kim, Jung-Eun, freelance journalist, statement...................   102
Lee, Helie, West Hollywood, California, statement................   105
Lee, Sun-ok, North Korean Prison Camp Survivor, Seoul, South 
  Korea, statement...............................................   109
Mason, Jana, Asia Policy Analyst, U.S. Committee on Refugees, 
  Washington, D.C., statement and attachments....................   121
Massimino, Elisa, Lawyers Committee for Human Rights, Washington, 
  D.C., statement................................................   135
Rendler, Jack, Vice Chair, U.S. Committee for Human Rights in 
  North Korea, statement and attachment..........................   144
Vollertsen, Norbert, M.D., Seoul, South Korea, statement.........   152

 
       EXAMINING THE PLIGHT OF REFUGEES: THE CASE OF NORTH KOREA

                              ----------                              


                         FRIDAY, JUNE 21, 2002

                              United States Senate,
                               Subcommittee on Immigration,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 10:10 a.m., in 
Room SD-226, Dirksen Senate Office Building, Hon. Edward M. 
Kennedy, presiding.
    Present: Senators Kennedy, Brownback, and Allen (ex 
officio).

  OPENING STATEMENT OF HON. EDWARD M. KENNEDY, A U.S. SENATOR 
                FROM THE STATE OF MASSACHUSETTS

    Chairman Kennedy. We will come to order. I am pleased to 
hold this hearing on the plight of North Korean refugees and I 
thank my colleague, Sam Brownback, for his leadership on this 
important issue. He has really been out in front on this matter 
and all of us are grateful for all the good work that he has 
been doing.
    Recent press reports have highlighted the seriousness of 
the situation facing North Korean refugees, many of whom have 
fled their native land seeking safe haven, only to be forcibly 
returned to face torture and execution.
    The significant number of North Korean refugees is due in 
large part to the severe political and religious persecution in 
that country. The U.S. State Department estimates that in 2001, 
150,000 to 200,000 North Koreans were held as political 
prisoners at maximum security camps. The situation has been 
exacerbated by the severe famine that has plagued the country 
since the mid-1990s, resulting in up to two million deaths from 
starvation or famine-related diseases since 1994.
    Those who have gotten out of North Korea, most have gone to 
neighboring China. It is estimated that in 2001, hundreds of 
thousands of North Korean refugees fled to China each month, 
amounting to somewhere between 10,000 to 500,000 refugees total 
for the year.
    China's reaction to North Korean refugees has been 
inconsistent. Although China maintains an agreement with North 
Korea to return North Korean migrants, Beijing has often looked 
the other way as these individuals try to begin new lives in a 
safer land. However, in a number of high-profile cases 
recently, China has intervened, aggressively rounding up and 
forcibly returning refugees to North Korea, even storming 
sovereign foreign diplomatic missions to do so. And the Chinese 
Foreign Ministry has demanded that foreign diplomatic missions 
hand over to the Chinese police those who have sought refuge on 
their grounds.
    Beijing officials consider the North Koreans as economic 
migrants instead of political refugees, and as such, has 
hindered the ability of the United Nations High Commission on 
Refugees and international nongovernmental organizations to 
comprehensively assess the gravity of the situation and set up 
refugee camps. I look forward to the testimony of our witnesses 
as they will be able to shed greater light on this critical 
situation.
    This week, the Senate passed a measure sponsored by Senator 
Brownback, which I was privileged to cosponsor, encouraging 
North Korea, China, and United States to work toward the 
favorable resolution of this dire situation. Clearly, the 
United States must play a significant role in addressing the 
needs of these vulnerable individuals. The severity of the 
situation and our tradition of commitment to refugees require 
it.
    While the focus today is on the plight of the North Korean 
refugees, we must remember that the number of refugees around 
the world has increased steadily in recent years and our 
commitment to all these individuals is more necessary than 
ever.
    I look forward to the testimony of our distinguished 
witnesses and to working with our colleagues to effectively 
address the situation in North Korea and other parts around the 
world, where far too many refugees languish in need of our 
assistance.
    Senator Brownback?

STATEMENT OF HON. SAM BROWNBACK, A U.S. SENATOR FROM THE STATE 
                           OF KANSAS

    Senator Brownback. Thank you very much, Mr. Chairman, and 
thank you very much for your leadership and for hosting this 
very important hearing.
    The purpose of this hearing should be clear and its message 
should be direct. The North Korean refugee crisis has been 
neglected for too long, partly because many, including the 
Chinese government and others, wish it would just go away. As 
the graphic reports of North Korean asylum bids at foreign 
embassies show, this problem will only continue to escalate.
    As you know, Mr. Chairman, our resolution on North Korea 
unanimously passed the Senate this week. That resolution 
expresses four key points which should serve as guiding 
principles for us in this hearing. First, forced repatriation 
of the North Korean refugees constitutes a violation of 
international law. Therefore, the Chinese government should 
immediately stop the forced repatriation of North Korean 
refugees.
    Second, the Chinese government should allow the 
international community to provide open and direct assistance, 
such as medical aid and proper facilities, to these North 
Korean refugees.
    Third, the United Nations, with the cooperation of the 
Chinese government, should immediately conduct an investigation 
of the conditions of the North Korean refugees as soon as 
possible.
    And fourth, North Korean refugees should be given legal 
refugee status in accordance with international law.
    Regarding that last point, I am reviewing various 
legislative options, including one that parallels a law from 
the early 1990s that helped thousands of Soviet Jews and others 
persecuted for their ethnic or religious backgrounds caught in 
the breakup of the Soviet Union. I am grateful to the many in 
the refugee advocacy community who have offered their support 
in helping us craft a bill or an initiative that may similarly 
help North Korean refugees. These organizations, many of which 
were involved with the legislation back in the 1990s, include 
the Hebrew Immigrant Aid Society, the Lawyers' Committee for 
Human Rights, the Southeast Asian Resource Action Center, the 
National Association of Korean Americans, the U.S. Committee on 
Refugees, and others.
    Let me also add that my office received word last night 
that a number of leading refugee advocacy groups are ready to 
immediately assess assistance needs and relief programs if and 
when the North Korean refugee processing initiative is started 
in China. They are ready to go now. These groups include 
Doctors Without Borders, which I understand withdrew from North 
Korea a few years ago, the Citizens Alliance for North Korean 
Human Rights, one of the leading groups involved with North 
Korean refugees, Life Funds for North Korean Refugees based in 
Japan, the Korean Peninsula Peace Project, and others. They are 
ready to go and to help now.
    North Korea is today's killing field where millions of 
people, considered as politically hostile or agitators or just 
being innocent children, starve to death while those in power 
enjoy luxurious lifestyles, spending billions of dollars on 
weapons and actively engaged in the proliferation of weapons of 
mass destruction.
    Former President Ronald Reagan stated our nation's 
tradition best when he said this. ``A hungry child knows no 
politics.'' Well, every famine is complicated by politics. The 
North Korean famine is the most complicated politically that 
many of us have seen in a long time. Politics is killing 
people, literally.
    How the U.S. and the world community can most effectively 
express its sympathy and concern for the North Korean people 
and help the North Korean people, including refugees currently 
in China, which the chairman stated that we believe is 
somewhere in the neighborhood of 150,000 to 200,000, is the 
issue before us today.
    If I may, I would also like to warmly welcome our 
distinguished witnesses on the panels that we are going to have 
who are present, particularly two. Ms. Soon Ok Lee is a North 
Korean prison camp survivor. Her book, which my wife and I read 
two weekends ago, is a chilling, chilling report of what is 
taking place in North Korea in the prison camps, Eyes of the 
Tail-less Animals. It is an incredible account. I also welcome 
Dr. Norbert Vollertsen, an activist on behalf of North Korean 
refugees. Both of them have traveled here from Seoul, South 
Korea.
    I would also like to welcome Ms. Helie Lee, who has 
recently published memoirs about her successful effort to bring 
her uncle out of North Korea. It highlights the largely hidden 
and painful secret among many Korean Americans who still have 
family members trapped in North Korea and China. I understand 
as many as one in four Korean American families have family 
members still trapped in North Korea.
    I look forward to working with you, Mr. Chairman, on some 
legislative vehicles to help North Korean refugees and I thank 
you for holding this hearing.
    Chairman Kennedy. It is a privilege to welcome back Gene 
Dewey, who has already appeared before this committee once this 
year. He has been a distinguished leader at the Department of 
State. He serves as Assistant Secretary of the Bureau of 
Population, Refugees, and Migration. In that role, he is 
responsible for overseeing U.S. Government policies regarding 
population, refugees, international migration issues, and 
managing refugee protection, resettlement, and humanitarian 
assistance. Previously, he served five years as the Deputy 
Assistant Secretary of the Bureau for Refugee Programs and he 
was named a United Nations Assistant Secretary General. He 
served four years in Geneva as the United Nations Deputy High 
Commissioner for Refugees.
    I am honored he has come back to testify and look forward 
to his testimony on this critical issue.
    It is a pleasure to have Lorne Craner, our Assistant 
Secretary of State, Bureau of Democracy, Human Rights, and 
Labor, responsible for coordinating U.S. policies and programs 
that promote and protect human rights and democracy around the 
world, goals which he pursued throughout a distinguished 
career. Previously, he served as President of the International 
Republican Institute, which works to promote democracy, free 
markets, rule of law throughout the world. He also served as 
Director of Asian Affairs at the National Security Council, 
Deputy Assistant Secretary of State for Legislative Affairs. We 
are delighted to have him here.
    And I am privileged to introduce James Kelly, Assistant 
Secretary of State for East Asian and Pacific Affairs. He has 
had a long and distinguished career in international affairs. 
Before assuming his current position, he was President of the 
Pacific Forum of the Center for Strategic and International 
Studies in Honolulu. Before that, he served as Special 
Assistant for National Security Affairs for President Ronald 
Reagan, as the Senior Director for Asian Affairs in the 
National Security Council, and as Deputy Assistant Secretary of 
Defense for National Security Affairs at the Pentagon. I am 
honored to welcome him.
    We have Senator Allen here, who has a key interest in the 
subject matter. We are delighted to welcome him to our panel.
    Senator Allen. Thank you, Mr. Chairman.
    Chairman Kennedy. Mr. Dewey, Secretary Dewey, we will be 
glad to hear from you.

  STATEMENT OF ARTHUR E. DEWEY, ASSISTANT SECRETARY OF STATE, 
 BUREAU OF POPULATION, REFUGEES, AND MIGRATION, DEPARTMENT OF 
STATE, WASHINGTON, D.C.; ACCOMPANIED BY LORNE CRANER, ASSISTANT 
  SECRETARY OF STATE, BUREAU OF DEMOCRACY, HUMAN RIGHTS, AND 
LABOR, DEPARTMENT OF STATE, WASHINGTON, D.C.; AND JAMES KELLY, 
    ASSISTANT SECRETARY OF STATE FOR EAST ASIAN AND PACIFIC 
         AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, D.C.

    Mr. Dewey. Thank you, Mr. Chairman, and thanks to you and 
your committee for the opportunity to discuss the plight of the 
North Korean asylum seekers in China.
    We do not have a lot of information about what goes on in 
North Korea and we have little information also about the 
situation on the border with China, but we certainly have 
enough to realize that this would rank on anyone's short list 
of the greatest manmade disasters in the world. It is a 
horrific humanitarian tragedy.
    Under North Korean law, for example, the very act of an 
unauthorized departure from North Korea for China or for 
anywhere is grounds for prosecution, which amounts to 
persecution.
    President Bush said during his February visit to Seoul this 
year, ``North Korean children should never starve while a 
massive army is fed. No nation should be a prison for its own 
people.''
    Thousands of people have fled into China in search of food 
and work and to flee persecution. We place a particular 
priority, as has been mentioned, on the U.N. High Commissioner 
for Refugees getting access to the border region in order to 
set up a process to sort out who these people are and to 
identify those that have a legitimate claim to asylum. That is 
not possible now, as has been stated. A second role that makes 
it importance for a presence there of the High Commissioner for 
Refugees is to be a watchdog against push-backs against 
refoulement to North Korea.
    In recent days, we have witnessed desperate measures taken 
by individual North Koreans to avoid push-backs and to gain 
asylum. North Koreans have run the gauntlet. They have sought 
refuge in foreign embassies and consulates in Shenyang and 
Beijing. Onward settlement to South Korea has been negotiated 
for most of them, but 20 still remain in the South Korean 
embassy in Beijing and two in the Canadian embassy. One person 
was forcibly removed in an intrusion into the South Korean 
embassy and remains in Chinese hands.
    This transgression of diplomatic premises strikes at the 
very heart of the conduct of international diplomatic 
relations. It represents a serious violation of the Vienna 
Convention, and, of course, we are concerned about the 
violations of the Geneva Convention and the protocol to that 
convention in 1967, which China has signed, with the evidence 
that we do have of persons that have been pushed back to 
persecution and perhaps even death in North Korea.
    In a normal setting, which this is not, a person seeking 
resettlement in a third country would contact the U.N. High 
Commissioner for Refugees, requesting a referral for 
resettlement. But in this situation and for security reasons, 
North Korea is one of the countries where there is a 
requirement for U.S. officials in the field to get State 
Department and INS approval to accept referrals for asylum in 
the United States.
    To discuss briefly what we are doing now in response to 
this situation, the UNHCR is pressing for a high-level meeting 
in Beijing to deal with this matter. They have had meetings in 
Geneva to try to set this up and this is in train and, of 
course, we are strongly supporting it. We have repeatedly 
pressed China to adhere to the 1967 Protocol, which they have 
signed, to allow UNHCR access to the border region and to 
asylum seekers.
    The Department of State is also in the middle of a policy 
review on North Koreans in China. This is not diplomatese, Mr. 
Chairman, for simply studying the problem or reviewing the 
problem or keeping a watching brief on the problem. This is a 
serious effort to work the problem and to find solutions that 
will work.
    Let me also say that with respect overall to admissions to 
the United States that despite the security restrictions which 
were mandated by the events of September 11 of last year, this 
administration is committed to keeping the door open to 
refugees. The fact that any have been brought in represents 
somewhat of a miracle, given the hurdles that have been agreed 
by the Congress and the interagency community in Washington to 
make sure the security of American citizens is maintained.
    But I welcome the opportunity in this setting to explore 
any ideas you may have concerning our admissions program, 
either here today or in our annual admissions consultations 
with Secretary Powell next Tuesday.
    I would like to submit my full statement for the record and 
look forward to working with you on this important problem of 
North Koreans in China. Thank you, Mr. Chairman.
    Chairman Kennedy. Thank you very much, Secretary.
    [The prepared statement of Mr. Dewey appears as a 
submission for the record.]
    Chairman Kennedy. We will do ten-minute rounds, if that is 
all right.
    It appears that the Chinese are hardening their stance 
towards refugees. While in the past they often looked the other 
way or agreed on humanitarian grounds to allow certain refugees 
to travel to other countries, the Chinese Foreign Minister 
recently sent a note to all diplomatic missions demanding they 
cooperate with the Public Security Bureau, the Chinese police, 
and hand over any North Korean. They argue that foreign 
missions have no right to grant asylum on Chinese territory.
    Now, I understand that at least two countries, Canada and 
South Korea, have rejected the note. Can you tell us what the 
State Department's position is on that diplomatic note?
    Mr. Dewey. The State Department position is clear, that 
although we have not formally rejected, to my knowledge, we 
have made it clear to the Chinese that there has to be a 
process. That process has to be respected. They have signed the 
1967 Protocol, which if they do not agree to a process whereby 
the U.N. High Commissioner for Refugees plays its role in this 
process, they are making of that protocol little more than a 
perishable piece of paper. We have made that very clear and we 
will continue to make that clear to the government of China.
    Chairman Kennedy. Well, what does that mean? Does that mean 
you accept it or do you reject the note? How long are you going 
to have to go through the process before you reject it? I do 
not understand. You said, ``Our position is clear,'' and then 
you said, ``They have to go through a process and we are going 
to continue the process.'' I do not quite understand what that 
answer means. Are you rejecting their position? Are you 
accepting their position for a period of time? What is exactly 
the status?
    Mr. Dewey. It is a de facto rejection.
    Chairman Kennedy. Flat out rejection?
    Mr. Dewey. We are not handing them over.
    Chairman Kennedy. The fact that China considers the North 
Korean refugees economic migrants has allowed them, obviously, 
to keep any foreign NGOs and the U.N. High Commissioner out of 
the region. Recent press reports indicate there are some aid 
workers on the ground who have been arrested. There have been 
crackdowns on 180 North Korean refugees on the Chinese side. 
Can you confirm that the reports are true? Can you detail 
incidents of humanitarian aid workers being arrested in China 
and North Korea?
    Mr. Dewey. I would like to refer to Secretary Kelly, 
perhaps, on that. He may have more recent information.
    Mr. Kelly. Mr. Chairman, I do not have specific information 
on that, but I have seen the same reports that you have. I am 
not aware of relief workers in North Korea, because they are 
very few in number, of having been interfered with or arrested, 
but I have heard the reports, and consider them highly 
credible, of interference with relief workers in the 
Northeastern part of China.
    Chairman Kennedy. We would appreciate any material that you 
can provide for us.
    Mr. Kelly. I will certainly do that, Mr. Chairman.
    Chairman Kennedy. We know that North Korea is one of the 
most oppressive governments in the world. Many flee in 
persecution by the regime and would be able to establish the 
well-founded fear of persecution to qualify. So the problem we 
face is how to access this population in China, where most have 
fled. Under the circumstance, China is unlikely to let the U.N. 
High Commissioner operate independently inside its borders. One 
option is to organize a multinational effort to establish 
temporary resettlement camps in China that would serve as way 
stations for permanent resettlement in third countries.
    To make the option work, the U.S. would have to play a 
leading role in underwriting this effort and accepting North 
Korean refugees for resettlement. We have done this in other 
places. We have done this in Thailand, for example. Is the 
administration willing to consider that, or is it under 
consideration?
    Mr. Dewey. Yes, Mr. Chairman. The administration would 
consider that as an option, a role for international 
organizations other than UNHCR, organizations that move people, 
organizations that you are familiar with that have been very 
helpful in the past, the International Organization for 
Migration, for example. That can help us get around certain 
sensitivities of continuing to use the word ``refugee.'' If we 
could get agreement by the government of China that those 
people could be moved to places for settlement, this would be 
one agency that could help.
    Chairman Kennedy. Is this something that you have tried to 
suggest to the Chinese yet? Will you try? What should we 
assume? You think it is a good idea?
    Mr. Dewey. What you can assume is it is a good idea. It has 
to be part of a negotiating package--
    Chairman Kennedy. I agree.
    Mr. Dewey. --that needs to be dealt with the Chinese--
    Chairman Kennedy. But it has to get on the agenda to become 
part of a negotiating package.
    Mr. Dewey. And it has to be on the agenda for South Korea, 
as well.
    Chairman Kennedy. What are you telling us? Are going to put 
it on the agenda?
    Mr. Dewey. We will make that part of the agenda, part of 
the package.
    Chairman Kennedy. Good. Please keep us abreast of how that 
is going. We would like to be helpful to you.
    Mr. Dewey. We would like to work this--
    Chairman Kennedy. We want to work with you to try and 
indicate our of support.
    Finally, let me ask you, would the State Department be 
willing to designate North Korean refugees as a priority 
category to facilitate their resettlement in the U.S.?
    Mr. Dewey. I think it is too early to give you a yes or no 
response on the willingness. It certainly would be a question 
that we would take into account if that would appear to be 
useful.
    Right now, of course, as you know, the offer, or the law of 
South Korea does provide, makes it automatic citizenship for 
persons who were born on the peninsula of a Korean father, that 
they have citizenship rights in South Korea, so that should be 
taken into account first.
    Chairman Kennedy. Senator Brownback and I will be talking 
to the Department on numbers, because we have very restricted 
numbers in any event, but it would appear that these refugees 
certainly should have special consideration if we are able to 
set up a process. Even taking into account the Chinese 
response, I would ask if the United States is prepared and 
willing to be the principal responsible nation in terms of the 
resettlement if we set up this process?
    I think we have got to have an answer to that. Otherwise, 
if we say we are not quite sure about that but we still want to 
settle it up, I think you would have a difficult time in 
convincing them. So I think this is something that we would be 
glad to work with you on in terms of trying to indicate that we 
are prepared to play a full role and be responsive to these 
very, very special and important and significant national 
needs.
    Senator Brownback?
    Senator Brownback. Thank you very much, Mr. Chairman, and 
Mr. Dewey, members of the administration, I appreciate you 
being here. I have got several questions I would like to ask. 
They are somewhat follow-ups to, in some cases, Senator 
Kennedy's.
    If you go right on this issue of the special refugee 
category, the P-2 category, Secretary Dewey, under that 
existing P-2 category, we admit refugees only from a very small 
number of countries, such as Iran, former states of the Soviet 
Union. As I have said, North Korea strikes me as an excellent 
candidate for P-2 classification. Can you elaborate some on 
what the administration is discussing in granting this P-2 
category for North Korean refugees? This, it seems to me, would 
be custom made for this type of situation we are seeing today.
    Mr. Dewey. It is too early, Senator, to say that that is 
actively under discussion, as I say, the situation for South 
Korea really has to be addressed in this context first. But, as 
you also know, in our efforts to bring in as close to the 
ceiling as possible this year, admissions, that we are looking 
at every possible P-2 category in the world. So you are right. 
There may be a point where North Koreans would join this 
category.
    Senator Brownback. What is the hesitancy here? I mean, you 
have got a high level of persecution taking place in North 
Korea. You have starvation. You have the world community 
feeding a third to a half of the North Korean population. You 
have people fleeing just to remain alive. If you stay for the 
next panel or two, you are going to hear some eyewitness 
accounts of horrific situations. I would think there would not 
be any hesitancy here.
    Mr. Dewey. I do not think there is any hesitancy in the 
United States taking a leadership role in solving this problem, 
of working this problem and working toward a solution, and the 
leadership role is going to require going through several steps 
of a process. It is going to require the UNHCR getting the 
access to determine who these people are, which ones do have a 
legitimate claim to asylum and resettlement. That has to be 
worked in sequence. That is what we are taking a leadership 
role on, getting the Chinese to permit this access by the U.N. 
High Commissioner for Refugees.
    I think, step by step, yes, we will come to the P-2 
category point. But it should be done in an orderly sequence 
with our leadership.
    Senator Brownback. As we go in an orderly sequence here, 
people are dying in this process. Can you give us any time 
frame that we could expect some decisions to be made in a thing 
like this P-2 category?
    Mr. Dewey. I cannot give you a time frame except that we 
are attaching the utmost urgency to this, to getting the steps 
that would lead up to that accomplished.
    Senator Brownback. I hope you can stay to listen or at 
least watch the video of some of the next panels that we are 
going to have. I have talked with these people ahead of time 
and their stories will not let you sleep at night. If you are 
in a position to be able to help some of these people get out, 
and we are and you are, I would think we really need to move 
with some speed and some urgency here.
    Mr. Kelly. Senator Brownback, I think it is important to 
keep in mind that all of these people can now be resettled in 
the Republic of Korea, in South Korea, which has an elaborate 
procedure and facilities set up to receive and resettle these 
people who are, after all, Korean. Now, those individuals who 
have relatives in the U.S. and other claims for U.S. 
citizenship should certainly come here.
    But the first trick, sir, is we have got to get them out of 
China, and when we get them out of China, I would argue that 
the presumption probably should be the first destination should 
be the Republic of Korea, and if there is some reason, and I am 
not aware of any reason that these people would be left adrift 
or be left to the insensibilities within China, then we ought 
to take them.
    But at the moment, and I have had assurances on this from 
the Republic of Korea even this week, they are in the process 
of expanding their facilities and they are ready, willing, and 
able to receive and fund in a rather generous fashion what they 
claim to be an unlimited number of such people.
    Senator Brownback. Let me ask you about a couple of other 
issues. What level of contact have we made with the Chinese 
officials about letting people that get from North Korea into 
China to pass on through to a third country? Have we made that 
at the Secretary of State level, to urge the Chinese? Has this 
been a communique at that level?
    Mr. Dewey. If I could, Senator Brownback, I think that 
since Secretary Kelly--
    Mr. Kelly. There have been many contacts. This is not a new 
issue, Senator Brownback, and it has been brought up in the 14 
months since I have been Assistant Secretary. I have been 
present for a number of discussions. We threw together hastily 
a list, which I would be happy to provide for the record, of 
some 15 contacts. To the best of my knowledge, this is not one 
of the issues that has been raised by Secretary of State Powell 
with the Chinese leadership. It has been raised by me and by 
numerous other American officials, including our Ambassador to 
Beijing and various people of our respective staffs.
    Senator Brownback. I appreciate that you have raised it, 
but I do hope we can press it on up, as well. At the higher 
levels, as Senator Kennedy says, we have got to get it on the 
agenda. That is a key thing, and China is critical in this 
issue, to either allowing some refugee processing or allow them 
to pass on through to a third country that would be involved.
    As the U.S. Government looks to perhaps have discussions 
with North Korea and has been pressed to put forward an agenda 
in its discussions with North Korea, is the issue of refugees 
and allowing their resettlement on that discussion list?
    Mr. Dewey. I have responsibility for that, Senator 
Brownback, and it absolutely is on our agenda for the talks 
with North Korea. As you may have noted from the press, our 
Special Envoy, Ambassador Pritchard, met with the North Korean 
mission in New York a week ago today to offer our beginning of 
talks. We expect direct talks with North Korea to begin in a 
matter of weeks and not months, and human rights is an 
important part of the agenda and these refugee issues are an 
important part of that agenda.
    Senator Brownback. It will be on the agenda and discussions 
with--
    Mr. Dewey. It definitely will be raised, Senator Brownback.
    Senator Brownback. That is excellent. I am very pleased to 
hear that that is the situation and that is going to be 
pressing forward.
    Mr. Dewey, we are going to be talking with the Secretary of 
State next week about the number of refugees that the United 
States is allowing in. I saw a press report about a week or so 
ago that said we had only allowed in 17,000 to date this past 
year, and that was about two weeks ago. How many have we 
actually allowed into the United States, the current year that 
we are in?
    Mr. Dewey. It is actually about 16,000.
    Senator Brownback. Sixteen thousand? And what is the level 
that we have set at the top end of this for this year?
    Mr. Dewey. The top end ceiling is 70,000.
    Senator Brownback. Okay, and that is for the remainder of 
the year? Is that a fiscal year? Is that a calendar year?
    Mr. Dewey. That is for the fiscal year.
    Senator Brownback. So the fiscal year ending the end of 
September. Is there any way we are going to get anywhere close 
to that top number, then?
    Mr. Dewey. Senator, we are going to get as close as is 
humanly possible to get to that number. It appears now, if we 
project from current expectations, it will fall somewhat short. 
But any falling short is not due to any lack of commitment by 
the administration or work on the part of my Bureau and Jim 
Ziglar at INS to make this happen. As you know, you had the 
commitment from both of us at our initial hearing on this 
subject that we were going to fast track, we were going to 
streamline, we were going to work these security restrictions 
to the maximum extent.
    Jim Ziglar and I set up a joint task force which meets 
every week. We have gone into a crisis mode to deal with this. 
I have assigned one of my deputies, Mike McKinley, as the 
battle captain for this crisis action team that is working it 
with INS and with the FBI and with the NSC. We have this team 
that meets every week. We go problem by problem. We work out 
solutions to these problems. And so any failure to come up to 
70,000 is not going to be due to lack of commitment, lack of 
effort, lack of force and energy.
    What we are also seeing as we deal with these problems and 
overcome these problems, we are building an infrastructure and 
we are salvaging and repairing a very broken and, in many ways, 
sick admissions system to the United States. This rebuilding 
process is going to serve us very well in 2003 and years beyond 
because of the infrastructure we are putting in place, the work 
we are doing with referral agencies, such as the High 
Commissioner for Refugees, the increased money we will be 
putting into UNHCR to increase their infrastructure for 
referrals of such categories as the P-2 categories that you 
mentioned.
    Senator Brownback. As we look to the next year and our 
meeting next week, I think we should have North Korea well in 
our view as possibilities.
    With the plight that is taking place, these are obviously 
very desperate people. A number are starving. They are rushing 
the embassies. This is happening on a weekly, if not daily, 
basis in China now. It strikes me that this is just the front 
end of this and that you probably are doing some extensive 
planning, or I hope you would be, for more that would be 
coming. If boats start arriving in the U.S. with North Korean 
refugees, are we going to be prepared for that situation if 
that were to occur?
    Mr. Dewey. I would hope, Senator Brownback, that anyone 
advocating pushing, encouraging North Koreans to run this 
dangerous gauntlet would face up to the fact that this 
administration is seriously working the problem and seriously 
committed to getting a solution to this problem and that they 
would take into account the risk that they may be putting these 
persons in by encouraging this kind of action.
    We have seen this done with other groups of people in the 
past in other parts of the world and we know the tragic 
consequences of it. Part of it may be lack of communication--
they do not trust the government to really be working on 
problem solving. Believe me, they can trust this government. We 
are working this problem, just as we worked our problems in the 
past that I referred to the chairman about. We have used 
creative tools and methods and have used the influence and 
leadership of the United States to solve it. This is what we 
are doing and this is what we will do with this problem.
    Senator Brownback. I would just urge you to get the process 
in place of how we are going to deal with this and this issue 
of P-2 categories, get that in place because if not, I am 
afraid then that is going to push desperate people to be doing 
more desperate things, if they do not see a clear process, if 
they do not see clear things happening in a fairly short time 
frame, because by our numbers, large numbers are starving. By 
our numbers, we are feeding much of the North Korean population 
today. By our numbers, there are 150,000 to 200,000 of these 
refugees in China.
    It looks like to me this is something clearly building, and 
we have seen this happen before. I really hope we would have 
this in place and announcing it soon of what our actions are 
going to be and be very, I would think, fairly public about 
here is where the U.S. is and we stand to help the North Korean 
people.
    Mr. Dewey. I certainly hear what you are saying, Senator, 
and I want you to know that we appreciate, since we have the 
same objectives, we appreciate your support in this as we go 
along, and I would like to be able to consult closely with you 
and the members of the committee for your input, your advice, 
and to keep you up to speed on what we are doing.
    Senator Brownback. Thank you, Mr. Chairman.
    Chairman Kennedy. Senator Allen, we are glad to welcome 
you.

 STATEMENT OF HON. GEORGE ALLEN, A U.S. SENATOR FROM THE STATE 
                          OF VIRGINIA

    Senator Allen. Thank you, Mr. Chairman, and thank you for 
holding this hearing. I appreciate your leadership as well as 
that of Senator Brownback on this issue. The more and more that 
Americans and others around the world see the plight of the 
North Koreans, they will naturally and instinctively want to 
help those who are seeking to create lives of greater freedom 
and opportunity for themselves and their young people.
    I am on the Foreign Relations Committee and first became 
aware of this when a family called me. The Kim Han Mee family, 
fortunately, got out of North Korea. I appealed in early May to 
the Ambassador of China to let the Kim Han Mee family go to 
South Korea. While there is going to be some concern expressed 
by me and others about China, I think as a matter of courtesy 
and diplomacy, it should be recognized they responded favorably 
and that family is safe now in South Korea. I thank the Chinese 
government for following rules and orders and conventions in 
that regard.
    Being from Virginia, naturally, I love freedom and liberty. 
As part of the lineage of the spirit espoused by George Mason 
and Thomas Jefferson, I think those principles still endure, 
not just in this country, but for all people here on earth. I 
have a statement that I would put into the record. I want to 
ask you some questions and try to get a perspective of this.
    [The prepared statement of Senator Allen appears as a 
submissions for the record.]
    While Kim Han Mee and his family were released, just last 
Thursday, China refused to return back to South Korea a North 
Korean asylum seeker who was forcibly removed from the South 
Korean consulate in China despite the objections of South 
Korean officials. Three weeks ago, China demanded for the first 
time that South Korea turn over to Chinese authorities four 
asylum seekers who had made it into the South Korean consulate.
    When listening to your remarks and the question of Chairman 
Kennedy, it is clear that the United Nations High Commissioner 
for Refugees needs to have access to refugees residing in China 
to evaluate their status and their claims and facilitate the 
resettlement of those refugees that are in China to other 
countries. Now, what we want to do is halt these forced 
repatriations of North Koreans back to North Korea. I think you 
know, and I am sure you hear more today from very brave 
witnesses in the several panels, that clearly, repatriating or 
sending these people back to North Korea is a death sentence or 
a sentence of torture and persecution, even worse than what 
they were enduring prior to their escape to China.
    In your comments, Mr. Kelly, the logical presumption ought 
to be that people who have escaped from North Korea ought to be 
in Korea. Most likely, that is where their family members are, 
although they may not have seen them for 50 years because of 
the North Korean government's repressive approaches where there 
is not any communication whatsoever.
    We understand that the People's Republic of China has a 
historic affinity for North Korea versus South Korea. This has 
been borne out by wars and similarities in some regards, in 
their forms of government. I am not going to say the People's 
Republic of China's government is exactly like North Korea's. 
Thank goodness, they are better than that. But nevertheless, 
they have been allies.
    Is it possible that part of the problem with the People's 
Republic of China not living up to the conventions and 
agreements as far as inviolability of consulates and the 
refugee protocols that many countries, including China, have 
agreed to, is because of their affinity for North Korea and the 
fact that most of these people who have left and are seeking 
asylum would go to South Korea? Is that something that is 
giving them pause? Is that a reason for it, as opposed to if 
they were wanting to go to Vietnam, Singapore or Malaysia or 
some other country? Do you all feel that that is one of the 
reasons why they are hesitant to live up to their obligations?
    Mr. Kelly. Senator Allen, I will be glad to offer an 
opinion, and the answer is yes. I think that is one of the 
reasons. There is a longstanding, of course, relationship of 
the People's Republic of China and North Korea, or the DPRK, as 
it is called, which, of course, reached its high point late in 
1950 when a million Chinese soldiers came across the border to 
fight with Americans.
    In recent years, since the opening of diplomatic relations 
with South Korea, there has actually been a very warm, many 
would say warmer, relationship between Beijing and Seoul than 
there has been with Pyongyang. That appears to be being dented 
at the moment with this contretemps that Mr. Dewey mentioned of 
the people who are in the South Korean consulate.
    There probably are other reasons, too. There are three or 
four million Chinese who have been in China who are of Korean 
descent, considered minorities within the Chinese system, and 
it is fairly obvious that most, if not all, of the 21 million 
ordinary people, 21 to 23 million ordinary people in North 
Korea would rapidly go somewhere else if they could do so. The 
Chinese probably are less concerned over 100,000 or 200,000 
than they are of having that whole, or much larger refugee flow 
and I think that is a part of it.
    But these are just characterizations. We do not really 
know. The important thing is as we have represented, that China 
has to honor their obligations under the refugee conventions in 
this case and they need to involve the U.N. High Commissioner 
and they need to be registering these people and preparing them 
for resettlement either in North Korea or elsewhere.
    Senator Allen. We need to recognize the right of any 
country to protect its borders and China has the right to do 
that. To the extent that they are upset that many would want to 
resettle in the Republic of Korea or South Korea, I think that 
the United States can take a lead role. Obviously, there are 
many people of Korean descent who are now Korean-Americans--
U.S. citizens in all walks of life in this country. The United 
States ought to step up to the plate and have them be 
repatriated or sent under the asylum laws to this country and 
then possibly back to South Korea. I do not know if that would 
be any way of making it easier as far as the relationship that 
North Korea and the People's Republic of China have.
    I think that what Senator Brownback and myself and Senator 
Kennedy are all talking about is what we can do to help ease 
that burden on people. Really, we cannot wait forever, because 
if they are getting or sent back to Korea, we are sentencing 
them to persecution at best and death at worst. I understand 
protocols and procedures and timetables and agendas and that is 
all very important.
    This needs to be one of the very most pressing issues that 
we need to go forward with and I think you will find strong 
support, Mr. Secretary, on a bipartisan basis here in the 
Senate to make sure that folks can lead the lives they ought to 
be leading with human rights. The United States has to set up a 
separate number of asylum seekers from this situation from 
North Korea, North Koreans that actually have been able to 
escape from that repressive regime. I think there are going to 
be many that are in favor of doing so and we would like to be 
able to work with you on that.
    I would also hope that the Ambassador from China who 
responded favorably at least to that one request for a family 
for me, would also be able to report back to that country. As 
soon as the floodgates open, though, if they ever do open out 
of North Korea, North Koreans are naturally going to leave, out 
of hunger if not the political persecution. Regimes like that 
cannot stand the enlightenment of freedom and opportunity. It 
is the North Koreans' repressive government that has so many 
people wanting to leave.
    I understand People's Republic of China leaders not wanting 
to assimilate millions. It is one thing to have hundreds of 
thousands, but we need to work out ways, whether they are 
refugee camps such as Senator Brownback set up to assist in 
China, or other ways to allow them to get to South Korea, which 
I know many people from the Republic of Korea would very much 
want to have families reunited. It is one of their quests and 
probably one of the greatest driving missions of that country, 
regardless of the different political persuasions of folks in 
the Republic of China.
    Senator Brownback. Blood runs thicker than governments.
    Senator Allen. Absolutely, so thank you.
    Senator Brownback. [Presiding.] Mr. Dewey, I thank you and 
I thank the panel. I just would commit to your reading, if you 
could, today's Financial Times out of London. There is a story 
in there about living skeletons fleeing North Korea. The first 
paragraph is, ``Oh Yong Sil, a 55-year-old housekeeper and 
mother of two, for her, the realization that she was not living 
in a paradise dawned as the piled of emaciated corpses grew 
around her. She watched her husband starve to death, her sons 
grow up into living skeletons, and her township governor fade 
into death still uttering paeans to North Korean's glorious 
leader Kim Jong Il, son of Kim Il Sung, whose master plan all 
this is.'' That is today's Financial Times, the first paragraph 
of that story. I think you are going to see a lot more like 
this.
    We do look forward to working with you on this issue soon. 
I hope we can meet next week. Thank you very much.
    Mr. Dewey. Thank you very much.
    Senator Brownback. I am honored to introduce our second 
panel of witnesses, each of whom has a harrowing story to relay 
about his or her own personal experiences in North Korea or 
those of family members. I am hopeful that their accounts will 
help shed light on the problems facing North Koreans and I 
thank them for sharing their experiences with us.
    Soon Ok Lee grew up in North Korea as a proud member of the 
Communist Party. She fell victim to a legal system without due 
process. She spent six years in prison on false charges, forced 
to endure brutal treatment. She managed to escape from North 
Korea in 1995 and has written a book, Eyes of the Tail-less 
Animals, on her ordeal. She now lives in South Korea with her 
family, and I noted earlier that my wife and I read this book 
two weekends ago and just found it harrowing, incredibly 
harrowing.
    If these witnesses would care to come forward to the table 
as I read this off, we will move forward. Would the panel 
please come on up to the table?
    Next will be Helie Lee. She is an acclaimed writer who was 
born in South Korea and grew up in Los Angeles, where she 
currently lives with her family. Her most recent book, In the 
Absence of the Sun, details her successful life-risking efforts 
to sneak her uncle and his family out of North Korea. I am 
hopeful that her testimony will provide insight into the 
difficult situation facing approximately 500,000, half-a-
million, Korean Americans who have relatives in North Korea who 
they are unable to see.
    Dr. Norbert Vollertsen has worked on humanitarian issues in 
North Korea since 1999, when he went there to provide needed 
humanitarian medical assistance. Over the course of his 18 
months there, he found a system worth with corruption in which 
ordinary people were forced to forego critical medical supplies 
while the government stockpiled those supplies for use by a 
small minority. He was later expelled from the country for his 
efforts to expose these abuses and he continues to speak out 
against the humanitarian situation that is occurring in North 
Korea.
    I thank all of our panelists here today for their courage 
and their bravery and their willingness to speak out about a 
corrupt and incredibly difficult situation for the people in 
North Korea.
    Ms. Lee, we will start with your testimony, and I believe 
we will have a simultaneous translation taking place. We are 
delighted to have you here, and having read your book, I am 
surprised you are alive and I am amazed at how good you look. 
Ms. Lee?

  STATEMENT OF SUN-OK LEE, NORTH KOREAN PRISON CAMP SURVIVOR, 
                       SEOUL, SOUTH KOREA

    Ms. S. Lee [through interpreter]. I would like to first 
thank you for this opportunity for me to tell about the 
situation in North Korea. Whenever I have a chance to talk 
about these kinds of things, I first thank God.
    With the assistance of a lot of people that I have 
received, I am totally thankful to have this kind of 
opportunity to tell about people in North Korea who go dying, 
which I have witnessed. Along with my son, I was able to seek 
freedom and succeed in that search and I settled in the 
Republic of Korea.
    I would like to first describe what the real human rights 
situation is in North Korea comprehensively. Of course, there 
is no minimum level of human rights by any standards in the 
world and there is no such thing in North Korea. Of course, 23 
million people who live in North Korea are led to believe they 
are living on a paradise on earth. Myself, having lived 50 
years in North Korea, believed North Korea was the country 
where human rights were maximally and best guaranteed on earth.
    In North Korea, life of the people is such that anybody can 
either live or die for the sake of a person by the name of Kim 
Jong Il. Of course, North Korea is a dictatorial country where 
father and son, that is Kim Il Sung and his son Kim Jong Il, 
have been ruling for the past half-a-century. North Korea is a 
country where people cannot truly speak without thinking about 
Kim Jong Il or Kim Il Sung. They cannot even move freely. North 
Korea is a country where people have no concept or idea what 
human rights is.
    I served seven years in prison for the first charges which 
I never committed. And the judiciary system of North Korea has 
no rights or authorities of its own, apart from the leadership 
of Kim Jong Il or the party. So anyone can become a political 
prisoner or a political criminal once the person does not 
follow the instructions or the orders of Kim Jong Il or the 
party.
    I just told you that I served seven years in prison in 
North Korea. My charges were that I failed in my job, which was 
to see to it that supplies are properly distributed to cadre 
members of the party. In North Korea, there are torture experts 
who do nothing but torturing people. Due to the severity of the 
torture, many just confess whatever charges they are accused 
of. They say they did it because they could not just sustain or 
survive the torture they were suffering.
    I, myself, suffered 14 months of torture almost every day. 
During the course of the torture that I had to go through, the 
torturers trampled on my head and I still have the scars and 
injuries on my head and I do not have the normal function of my 
head and face because of that reason.
    There are many different types of torture, including water 
torture. The type of torture that I went through was water 
torture, and aftermath of that, I still to this day cannot eat 
food well.
    Then they also have what they refer to as the torture by 
freezing, or freezing fish. They literally make people freeze 
like the frozen fish and they do this because they believe then 
people will listen to them. It gets very cold in the winter in 
North Korea. It goes down to 30 degrees below Celsius. They 
strip people, have people sit on the frozen ground up to an 
hour, exposing themselves to cold. As a result of that type of 
torture that I received, I got frostbite and I lost all 
toenails from ten toes. It was not just to me, but I know 40 
other people who were sentenced to this, or going through that 
type of torture. Eventually, they all died as an aftermath of 
the freezing torture.
    Without understanding what charges and why I was sent to 
jail, nevertheless, I was sentenced to 14 years to serve in 
prison. When North Korea sends people to jail or prison, 
whether political crimes or general crimes or whatever, they 
always make up the charges themselves regardless of what the 
people have actually done or did not do.
    In the prison, North Korea maintains huge manufacturing 
plants where they produce products that are unknown to people 
outside. It is sort of a confidential secret, the products.
    The prison where I was put into was in Kachan, Pyongyang 
Province, and there were about 6,000 men and women prisoners. 
Among them were about 2,000 housewives. Among them, many of 
them were pregnant, which they conceived before they came to 
the prison, because they applied the charges not because of 
your own faults or anything you have done yourself, but if any 
of the relatives or your parents or your fathers or sons 
committed a crime, then you are responsible for that crime, as 
well, and that is the ground for punishment by North Korea.
    And once the mother was in prison for whatever charges they 
accused her of, and if she has conceived, she is pregnant, the 
baby has no right to arrive. They all killed unborn babies by 
inserting the salts and salt liquids into the womb. I have 
witnessed hundreds of North Korean women right after they give 
birth to babies kill their own babies. Even though they kill 
babies with chemicals, but nevertheless there are some times 
when babies are still born alive. When that happens, prison 
guards will come and will trample with their boots onto the 
babies still moving.
    You can imagine what kind of pain it would be for a mother 
to see her baby being killed. If she cries, then that cry would 
be interpreted as protest against the leadership of Kim Jong 
Il. Then she will be thrown outside and to be shot. The body of 
the woman who has been shot then is taken to the orchard and 
they bury the body underneath the fruit trees. I did not know 
until I was in prison that some foods are grown from the trees 
under which they bury bodies.
    I think women are the most tragic victims of the North 
Korean system of Kim Jong Il. These women are innocent. They 
are not guilty. The only sins or crime they have committed is 
because of a shortage of food, non-existence of food, they will 
have to seek for food, and that is their crime.
    To move from one area to another in North Korea, you 
require and you need a travel pass. Without it, you cannot 
simply move. Any woman who travels without this travel 
authorization, paper document, a travel document, is subject to 
the punishment by serving prison terms.
    In the prison, I saw a lot of Christians and their crime 
was believing in God. In North Korea, Kim Jong Il, along with 
his father Kim Il Sung, is god. The most heinous crime in North 
Korea would be not to trust or believe in the leadership of the 
party and the leader, Kim Jong Il. The Christians are punished 
not on their generation but the next two posterity, the 
following generations. The sons and their grandchildren will 
also be subject to punishment because their grandparents 
believe in Christianity.
    In prison, no one is allowed to look up to the skies but 
they have to keep their heads down all the time, only looking 
at the ground. Because of this posture they have to maintain 
year after year, by that, I mean prisoners will have to, even 
when they walk, they have to keep their heads down looking at 
the ground, the result was their neck bends and becomes stiff 
and fixed and then their spines go out of normal and it causes 
some medical problems, as well.
    Prisoners are forced to work 16 to 18 hours a day. Their 
diet, of course, is controlled by the prison authorities and 
each prisoner gets 100 grams of cornbread a day, along with 
this much of saltwater. When they sleep, they have to go into 
the same room in a group of 80 to 90 people. They all sleep in 
the same room. The space allowed for each prisoner to use when 
they go to bed would be about 16 feet long--correction, 19 feet 
long and 16 feet wide.
    Senator Brownback. For how many people, that size of space?
    Ms. S. Lee [through interpreter]. In that space, they put 
80 to 90 people, so when they sleep, the feet of another person 
will come onto the head of another person and so forth. They do 
not lie the same way, but the reverse way, every other person, 
so that they can make better utility or use of the space. So a 
prisoner, whenever he or she sleeps, will have someone else's 
feet on his or her face.
    Senator Brownback. You have 80 to 90 people in a room, 
then, 16 by 19 feet, is that correct?
    Ms. S. Lee [through interpreter]. Yes.
    Senator Brownback. Ms. Lee, if we could wrap up, because we 
have some other witnesses, and then we will have some 
questions, if we can, so if we could get the testimony wrapped 
up.
    Ms. S. Lee [through interpreter]. The prison I served, I 
knew they were, North Koreans were also testing biological 
systems, biological weapons systems. I am inclined to think it 
is the sort of responsibility of the international community to 
see and find out what is going on in North Korea, especially on 
top of biological experiments that they are conducting in 
prisons.
    Many refugees are, of course, escaping to China, and I 
believe these people escaped from North Korea because they do 
not like the political system they have and the dictatorship 
they have lived under. I believe the regime of Kim Jung Il 
ought to fall down as soon as possible. The Chinese government 
is stopping and blocking the refugees from getting into their 
country because of their diplomatic arrangements with North 
Korea.
    I personally hope that the United States, along with the 
international community, to see to it that refugees from North 
Korea are regarded, accepted as political asylum seekers. In my 
view, for North Korea to collapse, we need more refugees to 
leave North Korea. This way, we can prevent war.
    In conclusion, I would like to ask each member of this 
committee to pay attention to refugees from North Korea and 
grant them political refugee status. I would like to thank you 
very much for the opportunity for me to appear before your 
committee. Thank you very much.
    Senator Brownback. Thank you very much, Ms. Soon Ok Lee. It 
was a very powerful, very courageous testimony, what you just 
put forward, and I look forward to further dialogue with you, 
as well. And thank you for being willing to come here and to 
state this to the rest of the world.
    [The prepared statement of Ms. S. Lee appears as a 
submission for the record.]
    Ms. Helie Lee, thank you for joining us.

       STATEMENT OF HELIE LEE, WEST HOLLYWOOD, CALIFORNIA

    Ms. H. Lee. Thank you. First of all, I would like to say I 
am honored to be here. I am especially grateful to you Senators 
for bringing us all here today.
    I would like to say that I am not a scholar, a politician, 
an expert, a journalist. I am a writer. I am a Korean American, 
but most of all, I am an American, and the reason I am here 
today is to testify and be witness to the countless and 
thousands, hundreds of thousands of North Korean refugees 
hiding out in China, Russia, Mongolia, in absolute fear of 
being repatriated back to North Korea.
    But I would like to take it to a more personal level. It is 
the story of my grandmother, my grandmother who passed away 
three weeks ago. In her memory, I am here to honor her memory.
    My grandmother had lost her son during the Korean War--he 
was her firstborn and her firstborn son--in 1953. He was the 
only one who did not make it out of North Korea in 1950. For 
years, she had tried to search for him. After the armistice 
agreement was signed between the two Koreas in 1953, she wrote 
to politicians and ambassadors, missionaries, looking for this 
son, and when nothing happened, she had finally lost hope.
    But something amazing happened, and this is where I believe 
faith comes into play. Forty-one years later, in 1991, we 
discovered that her son is alive in North Korea. All of a 
sudden, this ghost is resurrected and this missing son is now 
alive. Finally, we know. But it is so bittersweet, because we 
know that he is alive, but however, the bitterness is not being 
able to go to him, because as you know, in 1991 when we found 
my uncle, North Korea was then and still is the most closed-
off, isolated, and repressive country in the world.
    My grandmother, for six years after discovering that he was 
alive, tried to go through all the official channels, the 
American Ambassadors, writing to North Korea, writing to Kim Il 
Sung, the dictator, to no success. We could not get a visa. We 
could not reunite mother and son after 47 years of separation.
    But then the most amazing thing happened in 1997. We get a 
phone call from China, from this Chinese Korean man. He calls 
us collect, I would like to say. He calls us collect from China 
and he says, I know this gentleman. He lives in North Korea. He 
says he has a mother in America. This is somewhat treasonous, 
but if you would like, I would arrange a meeting between mother 
and son in China.
    After talking to him quite extensively and realizing that 
this could possibly be true, my father and I immediately 
escorted my 85-year-old grandmother from LAX to Yanji, China, 
which is in Northeastern China. It is the closest airport to 
the border between China and North Korea. When we get there, 
the flight is so long and so grueling on my grandmother, we had 
to leave her behind in that city.
    My father and I decided to go ahead to the border. Our plan 
was to go to the border, make contact with my uncle through 
this person's assistance, smuggle him across the river, change 
and feed him, clothe him, take him in the car, drive him back 
11 hours through mountainous icy trails to my grandmother, have 
a few hours of precious reunion after 47 years, and then take 
him back to North Korea before the North Korean police discover 
he is missing, because if that happens, as Ms. Lee has said, 
not only would my uncle be punished, but his entire family, 
including babies and elderly. So it is very imperative that we 
got him back.
    My father and I drove to the river and when I saw the 
border of North Korea and China--you know, you are hearing 
about it, but I would like to describe it to you. I had 
imagined the border between China and North Korea. It is a 
watery border. It is the Yalu River. I had imagined it to be 
miles wide and treacherous. Having seen the 38th Parallel that 
divides North Korea and South Korea in half, I imagined barbed 
wires, guard posts, you know, loudspeakers shouting out 
propaganda.
    What I saw was a river. It was waist-deep. It was barely 50 
yards wide. But instead of barbed wires, there was a tall rock 
fence on the other side. The rock fence was about seven, eight 
feet tall. I believe it was put there not to keep the people 
from escaping, but to keep us, the outside world, from seeing 
behind the wall, which was all decay and disrepair of homes. 
But what was most scary was posted on the riverbank every ten 
to 15 yards were armed soldiers.
    But even the soldiers are hungry in North Korea, so if you 
feed them a piece of rice cake, give them a cigarette or 
promise them liquor, they will allow you to talk to the North 
Koreans. Otherwise, they will beat the North Koreans for 
speaking to the people on the China side.
    So that day at the river in April of 1997, I saw my uncle 
for the first time, and my father was with me that day and I 
heard my father cry for the first time, not because this was my 
uncle, because I have never seen such abuse of power. My uncle 
was the same age as my father, 62. He looked older than my 
grandmother. He was gaunt, and his eyes and cheeks were 
hollowed in. He was wearing the old Mao, you know, the green 
suit with the high Mandarin collar and the Lenin cap with this 
red star, and the clothes looked like they were 20 years too 
old and they were much too thin for the freezing weather. All I 
wanted to do was give my uncle my jacket, but the soldiers, 
trained to shoot, froze my feet that day.
    Our plan was to wait until sunset to get my uncle to cross 
the river under the protection of night. My uncle never made it 
across the river that day because of the famine. He was so 
gaunt and emaciated. The shock of seeing us, his American 
relatives who have come so far to bring him a care package of 
long underwear and beef jerky and Tylenol. Tylenol and Jesus 
Christ is my grandmother's balm for everything.
    [Laughter.]
    Ms. H. Lee. Having this care package, we had come this far. 
Unfortunately, my uncle could not cross the river, he was too 
frail, and we had come so close to reuniting mother and son 
after 47 years of forced political separation, but we had 
failed. And when my father and I had to return to the States, 
we were so guilt-ridden by what we had witnessed over there. We 
were so guilt-ridden for the privileged life that we as 
Americans live here. It was difficult to continue on in our 
lives. Even though I drove a Toyota, I felt wrong to drive this 
Toyota. I felt wrong to go to my parties and write for a 
living.
    We had to go back to North Korea, so we did. We planned 
this risky rescue mission, which I call the 007 Mission, being 
the Hollywood freak myself, watching a lot of movies, so I 
called it the 007 Mission. My father and I went back. With the 
assistance of a lot of very brave South Korean and Chinese 
Korean individuals who acted as our guides, our translators, 
our drivers, people with safe houses, we were able to plan this 
mission. What we originally thought was going to take two to 
four weeks took seven long months of flying to China many, many 
times, even with my 85-year-old grandmother.
    Believe it or not, we planned everything--you have to plan 
everything to the minute detail, how many people are going to 
cross the river, at what time, two, three, four, where you are 
going to go. We planned everything out. But, you know, you 
cannot predict how full the moon is going to be. You cannot 
predict how high the water is going to be. You cannot predict 
how many soldiers are going to be on the river.
    But, believe it or not, getting them across the river into 
China, defecting to China, was much easier--was the easy part 
of the journey. Four-hundred measly American dollars bought us 
nine lives, $400. For $400, you cannot even buy a purse in 
America sometimes. But for $400, we get them to China.
    This is where the difficulty of the journey starts. This is 
where the danger starts, because in China, North Korean 
refugees are not popular. They are not welcome. They are not 
embraced by the embassies. Embassies in 1997 and prior to--
embassies are somewhat opening their doors these days, but back 
then were turning refugees away, turning their backs on them, 
sometimes repatriating them, knowing they will go back and face 
execution for this grievous, treasonous act. So we knew getting 
them to an embassy in China was absolutely out of the question 
because there was a 50-50 chance.
    So we hid them for weeks in China. Finally, we planned a 
boat, fell through. Finally, we decided to get them out of 
China via Mongolia, via this South Korean embassy in Hanoi, 
Vietnam. It was a very dangerous and treacherous journey. We 
had to separate the family because of things that we could not 
predict, like propaganda of my relatives. Half of them are so 
brainwashed that it was very difficult to get them to defect, 
and so half of them came out in the early, the other half came 
out towards the end.
    When we got them to the embassies, that was not a guarantee 
that they were going to be able to go to South Korea. I, in 
fact, came to Washington, our great capital, spoke to an 
ambassador, and he told me to write to my Congressman and 
Senator. My relatives, unfortunately, did not have that kind of 
time for me to be sitting on my computer composing a letter.
    But what we did do was we had leverage to buy their lives, 
which means my uncle's family were not politicians and 
diplomats who had top secret, military information to barter 
for their lives. They were the lowest of the low society. My 
uncle's family, prior to the war, were rich landowners, but 
also had converted to Christianity. Therefore, he was punished 
for his family's, his parents' mishaps prior to the war, so my 
uncle was the lowest of the low class and so we knew that the 
embassies of the world were not going to take them easily.
    So being a savvy American woman and also having worked in 
the entertainment business in Hollywood, I knew the power of 
the media. We captured everything on videotape, and I believe 
it is this videotape and also the publication of my first book 
the year before in the United States that convinced the South 
Korean CIA to take my family as political refugees, and they 
are so lucky. They are the lucky few that made it to South 
Korea.
    The BBC, when we looked on the Internet yesterday, said 
about 1,600 North Korean refugees are living in South Korea. 
How shamelessly low is that? The KoreAm Journal, which is a 
Korean-English magazine here, said 1,800. Still, that is a 
better number, but it is still very little. America, our 
greatest country in the world, I believe, having traveled many 
places as a woman, as an Asian woman, this is the best place in 
the world to be. America, being so generous, has only received 
two refugees since 1950 as quoted in Newsweek 1997. Those two 
refugees since the Korean War were accepted into the United 
States. They were diplomats, North Korean diplomats to the 
Middle East. Obviously, they had important secrets to barter 
for their lives.
    So I am here today in the memory of my grandmother, who got 
to see her son after 47 years. She got to see him in South 
Korea. We made it happen for her. But you would think I would 
be so happy with that and be satisfied with that, but every 
day, I am filled with guilt, hearing about the refugees 
storming the embassies, because you know they do that in a 
last-ditch effort for freedom.
    I am hoping that sharing my family's story with you today, 
that you realize these are not faceless, nameless people. They 
are people in need. They are my relatives. They are mother and 
sons and they have relatives who are Korean American. Again, 
like Senator Brownback said, one in four Korean Americans have 
a connection or have relatives in North Korea. So thank you for 
listening.
    Senator Brownback. Thank you very much for that very 
powerful testimony. Thank you for your heart in doing that. 
That is an incredible experience, an incredible story.
    Ms. H. Lee. Thank you for letting me go over. I was worried 
about the buzzer.
    [The prepared statement of Ms. H. Lee appears as a 
submission for the record.]
    Senator Brownback. Dr. Vollertsen, thank you for being 
here.

   STATEMENT OF NORBERT VOLLERTSEN, M.D., SEOUL, SOUTH KOREA

    Dr. Vollertsen. Mr. Chairman, ladies and gentlemen, thank 
you for the invitation. I am a German emergency doctor who 
lived in North Korea for one-and-a-half years and I took care 
for ten different hospitals, several orphanages, and several 
hundred kindergartens.
    I traveled in North Korea about 70,000 kilometers, mainly 
because I am a medical doctor. I am also a drug dealer in this 
way. I became very close to the North Korean elite and they are 
very keen for German medicine, especially Viagra and all that 
kind of stuff, so I became very close with them.
    It is convenient to be a doctor sometimes. I got special 
experience there because one of my patients, he suffered from a 
serious skin burn and the North Koreans do not have any 
medicine, no bandage material. North Koreans hospitals are 
looking like--there is no electricity, no running water, no 
medicine at all, and no food. The people are starving and dying 
in those hospitals. I saw them literally dying every day.
    So what the North Koreans are doing now, they are donating 
their own blood, their own skin, their own bones when there is 
an emergency case. We were so excited about this, so moved by 
this experience, so my colleague and I, we also donated our own 
skin and for this brave act we got the so-called Friendship 
Medal of the North Korean people, the first Westerners ever who 
got this high honor of the North Korean people.
    There was a huge propaganda show in the North Korean media 
afterwards and we were awarded this so-called Friendship Medal, 
passport, and a private driving license and I was allowed to go 
around on my own without any translator, coordinator, minder or 
surveillance, whatever, and I have used this possibility. I 
traveled 70,000 kilometers. I took around 2,500 pictures, 
videotape out of the condition of these normal children's 
hospitals and I realized what is going on in North Korea.
    This is the lifestyle of the elite in North Korea. They are 
enjoying diplomatic shops, nightclubs, a casino in Pyongyang, 
in the showcase city Pyongyang, nice skyscrapers. The military 
elite is not suffering. They are not starving. They are getting 
the food. I was an eyewitness when the food supply of our 
German emergency organization was going to those in the elite, 
to the military. The medicine was going to the diplomatic 
shops, but not to the starving people in the countryside.
    And this is the reality of the starving people, especially 
the children in the countryside, and those children are not 
only looking like children in German concentration camps, they 
were behaving like those children. There is no more emotional 
reaction and they cannot laugh anymore, they cannot cry 
anymore. They are fed up. They are depressed.
    That was my main medical diagnosis in North Korea. They 
suffer from depression. They are full of fear. They are afraid 
to speak out because of this concentration camp. North Korea at 
whole is a concentration camp.
    I did not ever visit one of these concentration camps. I 
was not allowed to go there. No foreigners are allowed to go 
there. But I got a lot of rumors, a lot of knowledge, and you 
know about German history where we are accused that we stood 
silent when there were some rumors about German concentration 
camps, some stories, no evidence. So I do not have any photo 
out of a North Korean concentration camp. Sorry, I do not have 
any video out of the North Korean concentration camps.
    But I heard about those people and I realized when I talked 
to my patients how afraid they are. They are so full of fear. 
That is my main diagnosis, fear and depression. Most of the 
people are alcoholics. They are addicted to alcohol. That is 
the only thing what you can get in North Korea, no food, no 
medicine, but alcohol in order to calm them down, like Aldous 
Huxley's Brave New World.
    And then I found this. The criminal law of North Korea, and 
there in Article 47 it was written, a citizen of the republic 
who defects to a foreign country and who commits an extremely 
grave offense, he or she shall be given the death penalty and 
the penalty of the confiscation of all his property, and a 
person who commits acts of terrorism or any anti-state criminal 
act shall be committed a reform institution and there he shall 
be reformed through labor. Labor camps, reform institution--it 
is written here. It is published in Pyongyang in 1992 and it is 
still alive. It is still the law.
    I wondered, when this is the situation in a normal 
children's hospital, how might it look like in those reform 
institutions? So I criticized the government. I also simply 
believe in the power of information and the power of media and 
journalism, so I guided around many, many American journalists. 
Together with my driving license, I was able to carry them 
around in the capital city and the countryside and I was 
finally expelled. Even my Friendship Medal could not help me 
anymore.
    I was expelled in December 2000 after 18 months in North 
Korea and I fulfilled the promise. Instead of going home, doing 
business like usual in a German country hospital, I went 
straight to Seoul and I spoke to all the international 
journalists. I want to create awareness about this country, 
about the destiny of these North Korean refugees.
    And then I went to get the real image, because when I 
stayed in North Korea, despite my access, despite all my 
documents and whatever, I am still an idiot. I do not know 
anything about North Korea. They are so sophisticated to hide 
all of their dirty secrets. They are an upgraded version of 
Milosevich's Yugoslavia, Hitler's Nazi Germany, Stalin's 
Russia. They are an upgraded version of all these 
dictatorships. They are world champions, so sophisticated to 
hide those secrets. There is no travel access, no freedom of 
travel for diplomats, for journalists, for NGOs.
    So I went to the Chinese North Korean border and there I 
met all those refugees and all those stories came true. All 
those rumors about mass execution, about rape, about biological 
experiments. Their Christian believers are used like human 
guinea pigs in North Korea.
    I talked to nearly 200 North Korean refugees and then I met 
those South Korean NGOs, mainly Christian missionaries who are 
doing this brave and sometimes very dangerous job there at the 
Chinese-North Korean border in order to get those refugees out 
in a greater number.
    And then we have this idea. I am a German citizen and I do 
not only know about the guilt of our history about German 
concentration camps, but I know also about 1989, about 
reunification in Germany, how it all started, with several 
dozen refugees in the West German embassy in Prague, and then 
we had the idea, oh, let us repeat history. Why not go to the 
West German embassy in Beijing with some North Korean refugees 
and enter this embassy and start what will finally lead to the 
collapse of North Korea and reunification. Maybe a little bit 
naive, maybe a little bit simplistic. I am also not a 
politician, not a diplomat, I am simply a German emergency 
doctor who has to take care in an emergency case, because these 
children are dying and starving.
    So instead of choosing the German embassy, there was too 
much security, we chose the Spanish embassy. Twenty-five people 
managed to go into this embassy, and because of the media 
protection, because of the media coverage, they went out, 
because China is very much afraid about their reputation, host 
of the Olympics, member of the WTO, so they are very much 
afraid about media coverage and we finally succeeded to get 
these people out.
    Today, in the morning, the actual amount of people in the 
South Korean embassy is 21. One woman more yesterday entered 
the South Korean consulate in Beijing, so this will go on for 
the next weeks. We are hoping for some mass escape, like in 
former East German and then Prague, and we hope to repeat 
history, what will finally lead to the collapse of North Korea 
and I think this is the only solution, also for China and for 
the people that--and there are many, many people afraid about 
this collapse, but I think we have to look into these eyes.
    We have to think about those children, look into these eyes 
and then try not to care. I think it is worth to do anything, 
what we can do. As a German, I have to believe in this history 
of reunification and of refugees. I think this is the only 
thing that can lead to a collapse of North Korea.
    And finally, there are so many people afraid about weapons 
of mass destruction that are developed in North Korea and maybe 
this is the easiest way without any war, without any bloodshed, 
without any civil war, to get rid of this dictatorship. Thank 
you very much.
    Senator Brownback. Thank you.
    [The prepared statement of Dr. Vollertsen appears as a 
submissions for the record.]
    Senator Brownback. That is, from all three of you, very 
powerful testimony that you have put forward. I am reminded of 
a little brochure that I read about the German war situation 
and a number of the Jews being moved to concentration camps and 
it happening on Sunday morning. They would go by this one 
church in particular, and they could hear the cries in the 
church coming from the rail cars. Regrettably, people at that 
time, instead of looking out and trying to do something, they 
just said, well, let us sing a little louder so that they would 
not hear the cries that were coming.
    When you get into a situation like this where you have seen 
so much suffering taking place, what I appreciate that you do 
is put a light on it so that people can see what is taking 
place and we do not just sing a little louder so we do not hear 
what is taking place and let the people suffer.
    That is incredible testimony from each of you. We will ask 
ten minutes of questions each, because we do have another panel 
after this.
    Dr. Vollertsen and Ms. Lee, what should the United States 
Government be doing to try to help as many people as we can to 
survive the situation in North Korea and for it to change?
    Ms. H. Lee. My opinion is, Kim Jong, the North Korean 
President, in his sunshine policy, I think we should continue 
to support him and support any means to feed North Koreans. 
However, the situation is desperate. I think the numbers are 
staggering, anywhere from 100,000 to 500,000 North Korean 
refugees hiding out in China and other neighboring countries.
    I believe what is necessary at this point is a safe house 
where these people can go, and to me, all my research and all 
the people that I have spoken to, it seems like Mongolia is the 
most friendly country, not Inner Mongolia, but Mongolia. What 
do you think, Dr. Vollertsen?
    Dr. Vollertsen. Absolutely. That is our next step. We want 
to get an official refugee camp in Mongolia near the Chinese 
border and when there is some financial support, the Mongolian 
government is willing to do this, when there is some financial 
support maybe from the U.S. Government and some negotiations, 
some official negotiation.
    And I still believe, or I think about the East German 
solution when Hungary opens their border. That was really the 
final step in this development, and I think the South Koreans 
are having a real hardship in their negotiations with China 
now. Those 21 refugees are still in the embassy and instead of 
the American consulate or American embassy, the Spanish embassy 
where China guaranteed a third country and then allowed them to 
go to Seoul, here in the South Korean embassy, they are still 
in because South Korea is not in the position to maybe talk a 
little bit more tough.
    Therefore, I urge you for support of the U.S. Government. 
That means maybe support in a financial way or try to talk to 
China's authorities, that they are so afraid to pay for all 
those North Korean refugees. For sure, you are right, they are 
afraid about this flood. But when they will know that there is 
some support in any way, financial support or Mongolia, that 
they can maybe save their face and get rid of this problem, 
then I think a face-saving way, with China, there are some 
possibilities.
    I can see that there are some changes in the Chinese 
policy. When we met those Chinese policemen, they are quite 
open, and I know so many Chinese businessmen who are trying so 
hard to get a change in the Chinese policy in China, in 
Beijing. They want to do business with Pyongyang. They want to 
do business with South Korea. So I think with a little bit more 
pressure on China, face-saving pressure, then they are willing 
to do something and be helpful.
    Ms. H. Lee. But from there, then where? South Korea has 
thus far taken most of the refugees. However, as the panel 
before us said, they have a generous program to reeducate and 
reassimilate these North Korean refugees in South Korean 
society to understand capitalism and the 21st century.
    However, that program, which my uncle's family and a total 
of nine people had undergone, that program years ago, when 
refugees were very few and far in between, used to be about a 
year program. They would take these refugees to a walking tour 
through South Korea, literally taking them to department stores 
that are larger than their entire towns, showing them what an 
elevator is, what an ATM machine, all the modern things that we 
have today.
    However, this program, when my uncle got to South Korea in 
1997, was reduced because of the economic crisis that had 
occurred that year and the year before. It was reduced from one 
year to barely two, three months. The government also provides 
these refugees housing, job training, sometimes allowance to 
live off. But I really believe it is a tremendous burden on 
South Korea and that is why the numbers are very, very 
shamefully low.
    As Korean Americans, I think it would be great for us to 
take responsibility for a lot of those family members, and I 
say family members. We are all connected. Just look at our last 
names, Lees, Parks, Kims. We are all connected.
    Senator Brownback. And I noted you saying about two 
refugees being accepted in the United States from North Korea 
since--
    Ms. H. Lee. Being an American, I am very ashamed of that.
    Senator Brownback. Yes. I am, too.
    Ms. Lee, you write in your book a story of a particular 
incident that occurred where you saw a number of people just 
killed for their faith. I think one situation you write in here 
of people, if they did not renounce their faith, they were 
killed on the spot. Did you see that take place frequently and 
could you describe what you saw?
    Ms. S. Lee [through interpreter]. I personally believed 
there is only living god who was the leader of the country and 
I thought we just have to believe in him. Otherwise, we will be 
punished. But I realize it is not a crime to believe in Christ 
when I saw a number of prisoners who believed in God. The 
prison guards treated them as mentally sick people because they 
did not believe in their leader.
    These Christian prisoners were forced to work in a furnace 
where there is iron work. Some of them were serving the prison 
more than ten years because their body all changed, because 
they had to work about 18 hours every day and their backs would 
not support the kind of work they were doing and they all 
looked sick.
    In the prison, they are not allowed to talk to each other 
or even sing. But they were mumbling. Apparently, they were 
singing without singing, but they were singing in their mouths 
that I could tell. Prison guards said they were singing 
Christian hymns. The person who sang, of course, was punished 
cruelly by the prison guard, who trampled on her face.
    I have seen many scenes of Christians being punished 
because they would not change their belief. They would not say, 
okay, I will not believe in Christ anymore, and that is what 
the prison guards wanted to hear. I have seen eight women who 
were dragged out and being punished because they did not say or 
they did not say they would not believe in Christ anymore. 
These women were burned.
    Senator Brownback. Burned to death?
    Ms. S. Lee [through interpreter]. Yes. When I first went to 
the prison back in 1987, I believe that there were about 250 
Christian criminals. But by the time I left the prison, I could 
not recall any survivor of the people I first saw.
    But in the year 1993 when I left the prison, I saw more, 
the greater number of prisoners who were taken there because 
they believe in Christ, and I heard by word of mouth that was a 
result of Kim Jong Il's instruction. His instruction was, 
imperialists are sending advanced aggressors in the name of 
missionaries to North Korea to invade our country. I also heard 
that Christianity came into North Korea in lieu of China by 
missionaries.
    In the 1990s, more Christians were arrested and sent to 
prison. During the seven years I served in the prison, there 
must have been thousands of Christians who died as a result of 
punishment. They were treated less then beasts, sub-human 
beings, being kicked by the boots of prison guards and lashed 
by leather lashes, and I saw these people still had to work. 
The prison guard was telling these prisoners to say, we will 
not believe in God but we will believe in our leader, Kim Jong 
Il. So many people died because they did not say, we do not 
believe in God.
    Senator Brownback. Thank you very much.
    Senator Allen?
    Senator Allen. Thanks, Senator Brownback.
    I thank each of you for not just your testimony, but also 
your bravery.
    Dr. Vollertsen, I am not happy with the results of the 
soccer game in Korea this morning--
    [Laughter.]
    Senator Allen. --but let me, as a matter of fair play, 
congratulate the Germans in their one-to-nothing victory on the 
Korean peninsula.
    I remember in 1983 going into Berlin through East Germany 
and to the Wall and then actually going over and seeing East 
Berlin, obviously driving through East Germany to get there. I 
remember the long lines of people getting in line for just a 
few pathetic-looking vegetables and no one was impatient. They 
were resigned. They accepted it. It is a similar situation that 
you are describing.
    East Germany had the stores for the tourists and they had 
all sorts of nice porcelain and appliances. Of course, no one 
who was in East Berlin or East Germany could afford them. If 
they had those pathetic motor vehicles, cars, that was one 
thing, but then you saw the goose-stepping folks at the tomb 
there where Cubans as well as East German military folks were 
coming in, and they were driving in Volvos and Saabs and so 
forth. That same sort of disparity exists in these supposedly 
egalitarian societies where the rulers live like kings--in 
fact, they may be kings in North Korea--and the rest living 
that way.
    I was wondering, how could you ever be able to overthrow 
this repressive government, where their only technological 
advances are repression? The only place where they are 
advanced, is how they use the designs of modern advancements to 
keep people from leaving or keep them under control. I just 
thought, there is no way. The people do not have guns. You 
cannot have an uprising. The way it fell is the Iron Curtain 
fell in Czechoslovakia and the Iron Curtain fell in Hungary. 
Everyone was coming out of East Germany into Germany, 
generally, going back to the other part, to Germany, and they 
just could not keep it.
    That would be the hope for North Korea, although from 
listening to this testimony and studying it, North Korea is 
much, much more repressive than East Germany was or Hungary or 
Czechoslovakia or Romania. At least you could go in there. I 
could observe the people in those lines.
    North Korea is only one of seven countries recently, once 
again, listed as a terrorist state by our State Department, 
along with Iraq and Iran and Cuba, Syria, Sudan, and Libya. 
These terrorist states are a threat to our countries.
    It is obvious from your testimony, though, that they also 
terrorize citizens in their own country. When you look at what 
needs to be done, let us not blame America. I am not ashamed of 
Americans, so let us not say we are ashamed of America or the 
Republic of Korea or South Korea. The people who should be 
ashamed are these repressive tyrants and dictators persecuting 
the people of North Korea. We are proud of our country. We want 
to export our values. We need to figure out a way to use your 
evidence, and your concern that we all share, in a positive, 
good way.
    Now, you mentioned Mongolia as possibly a place that is 
willing to have assistance. It is very logical that it not just 
be the United States, but also logical that the United Nations 
would get involved in assisting, as well. As we determine where 
the people from North Korea who can escape should go, it is 
again logical that one would go to South Korea, just like the 
East Germans went to West Germany. The assimilation, because of 
their economy, may be more difficult, but the language is the 
same.
    And I am wearing a tie from Kyonji. I have set up a sister 
state relationship with Kyonji-Dong. The governor's name was 
Governor Rhee or Lee at the time. The point is there is such a 
proud heritage of the Korean language that no matter who was 
oppressing the Korean people, they kept that language alive.
    So it would be, very logical because of history, heritage, 
and, of course, language, that South Korea ought to be the 
place for first settlement. Whenever the tyranny falls in North 
Korea, as the South Koreans are coming up to the border of the 
38th Parallel, they have these big roads all built for the day 
when they are reunified. They are going to be needed to get 
that country built, or rebuilt, in the proper way. We ought to 
work primarily for repatriation in South Korea.
    However, I have been talking to Senator Brownback about 
asylum quotas or numbers. There is certainly enough in there to 
allocate more than what we have to come to this country where 
there are relatives, as well. But I think, ultimately, the 
primary place of relocation should be a country where you, 
first of all, assimilate most easily if you can communicate 
with one another in the same language.
    So I would like to hear your views. Do you think the United 
Nations can be of assistance in Mongolia and preferences as to 
how we can make it easier for North Koreans who have escaped 
the persecution and have legitimately sought asylum to locate 
in South Korea? I ask Ms. Lee and Dr. Vollertsen.
    Ms. H. Lee. I agree with you. My relatives going to South 
Korea was the best thing for them. Koreans are very proud 
people and the language between North Korea and South Korea are 
still one after 50 years. However, it is slightly different, 
the Lees and the ``e'' are a little different.
    But those who cannot get there and who do have Korean 
American relatives living in America, I do believe this is an 
option, and it is possible, because in the 1960s, after Mao had 
instigated the great leap forward in 1952 and there was a 
famine sweeping across China, 250,000 Chinese crossed the 
border into Hong Kong when the Chinese had opened up the border 
for three months. That is quite a bit, I agree. And Hong Kong 
appealed for international help. Then President John F. Kennedy 
issued an emergency Executive Order allowing immediate 
immigration of 5,000 immigrants from Hong Kong to the United 
States. So it is possible, and we do have that leeway of that 
number of refugees per fiscal year.
    But I agree with you. South Korea is the best place, but 
the situation is desperate now.
    Senator Allen. What about Canada? As far as Hong Kong was 
concerned, many went to Vancouver.
    Ms. H. Lee. A good place to go.
    Senator Allen. It is closest, in many respects. Do you know 
of other countries that share the interests of the United 
States? Obviously, South Korea does.
    Dr. Vollertsen. There are some European countries, Belgium. 
The Belgian government is very much involved in these human 
rights issues. They are supposed to do something for North 
Korean refugees, and you know about the South Vietnamese boat 
people. That is also what we are talking about now, some North 
Korean boat people, and then because of the pressure of the 
media, the German government in 1979 was forced to accept up to 
9,200 of those South Vietnamese boat people because there was a 
huge media story about those desperate South Vietnamese 
refugees who did not get shelter anywhere on earth, and then 
the West German government at that time decided to give asylum, 
so that is another possibility. We are also in negotiations 
with some European governments, especially the Belgians and 
maybe the Germans.
    Ms. H. Lee. There are Koreans all over this world. There 
are many Korean adoptees in Scandinavia, many Korean Canadians, 
many Korean Germans. I think we need to figure out where the 
populations are, where the families are, and get those people 
involved, as well. It is not just an American issue, it is the 
entire global issue.
    Senator Allen. Right, and that is why I think all countries 
involved in the United Nations, need to pitch in. Again, I 
thank you all. My time is up. Again, thank you for your 
bravery, but thank you most importantly for advocating what I 
like to call Jeffersonian principles.
    Senator Brownback. I thank you for advocating for those who 
are referred to sometimes as tail-less animals in North Korean 
prison camps, for those who do not have faces, but we need to 
give them to them, and names. Thank you very much.
    Senator Brownback. We have a final panel that I will call 
forward, and if you could come up, I will introduce the entire 
panel as we go, introduce them at the outset.
    The first witness is Felice D. Gaer, Chair-Elect of the 
Commission on International Religious Freedom and Director of 
the Jacob Blaustein Institute for the Advancement of Human 
Rights of the American Jewish Committee. She was appointed as a 
public member of nine U.S. delegations to the U.N. human rights 
negotiations between 1993 and 1999.
    The second witness is Mr. Jack Rendler of the U.S. 
Committee for Human Rights in North Korea. Now, at the last 
minute, he could not be here, so Ms. Debra Liang-Fenton, that 
organization's Executive Director, will offer his testimony. He 
has worked with organizations including UNICEF to Amnesty 
International and been a human rights activist for more than 25 
years.
    The third witness is Jana Mason, who is a policy analyst 
and Congressional liaison for the U.S. Committee on Refugees. 
Before that, she served with the IRSA.
    The final witness is Elisa Massimino, who is the Director 
of the Lawyers Committee for Human Rights based in Washington, 
D.C. She graduated from the University of Michigan Law School 
and has a master's degree in philosophy from Johns Hopkins. She 
worked with the Lawyers Committee on National Advocacy Program 
with a special focus on refugees.
    I am delighted that all four of you are here with us today. 
Because of the press of time, I think we will run the clock at 
seven minutes and get each of you, if you could, to summarize 
your testimony. We have your written testimony and that will be 
part of the record. But if we could do this in a seven-minute 
time period each, I think that would help move us along.
    Ms. Gaer?

   STATEMENT OF FELICE D. GAER, COMMISSIONER, UNITED STATES 
COMMISSION ON INTERNATIONAL RELIGIOUS FREEDOM, WASHINGTON, D.C.

    Ms. Gaer. Thank you, Senator. I wanted to thank you also 
for your leadership in holding this hearing, in bringing about 
this Senate resolution, and inviting the Commission to testify 
today on the conditions of religious freedom and associated 
human rights.
    The Commission on International Religious Freedom, as you 
know, was created by the Congress as an independent government 
agency specifically to monitor religious freedom violations 
around the world, to review U.S. Government policies in 
response to violations of religious freedom, and to provide 
policy recommendations to the President, the Secretary of 
State, and Congress.
    We are very glad that these hearings have been able to 
amplify the harrowing testimony that was presented by many of 
the witnesses here today. Indeed, the plight of the North 
Korean refugees is closely tied to the deplorable human rights 
and economic conditions in that country.
    Mr. Chairman, the people of North Korea are perhaps the 
least-free people on earth. Religious freedom does not exist, 
and what little religious activity the government permits is 
reportedly staged for foreign visitors. Thus, in an August 2001 
letter to Secretary Powell, the Commission on International 
Religious Freedom recommended that North Korea be named a 
country of particular concern.
    Now, in October of that year, Secretary Powell followed the 
Commission's recommendation and listed North Korea as a country 
of particular concern, or CPC. Now, that means that there are 
systematic ongoing and egregious severe violations of religious 
freedom, including torture, disappearances, loss of life, et 
cetera.
    Specific U.S. action should follow from that designation as 
a CPC and we await information as to what measures the U.S. 
Government will take because of that characterization. In our 
recently-issued annual report, we regretted to find that no 
action has been taken with regard to any country designated CPC 
that has been specifically identified as having flowed from 
that designation, whether for North Korea or other countries.
    Religion has played an important role throughout the 
history of North Korea. Buddhism was introduced there around 
the fourth century. Prior to 1953, the capital of what is now 
North Korea, Pyongyang, was the center of Christianity on the 
Korean peninsula. Yet after the Korean War, the North Korean 
government harshly repressed religious practice and large 
numbers of religiously active persons were killed or sent to 
concentration camps. At the same time, the government 
suppressed religion itself and it has since instituted the 
state ideology of Juche, which emphasizes, among other things, 
the worship of Kim Il Sung, the country's founder.
    Today, the North Korean state continues its practice of 
severely repressing public and private religious activities, 
including arresting and imprisoning and in some cases torturing 
and executing persons engaged in such activities. The State 
Department reports that in recent years, the regime has paid 
particular attention in its crackdown to those religious 
persons with ties to overseas evangelical groups operating 
across the border in China.
    We, in our report, indicated, as has the State Department 
and the witnesses, some of whom were here today, who we have 
been in touch with, that prisoners held because of their 
religious beliefs in North Korea are treated worse than other 
inmates. Religious prisoners, including, in particular, 
Christians, are reportedly given the most dangerous tasks while 
in prison. They are subject to constant abuse from prison 
officials in an effort to force them to renounce their faith, 
as we heard today, and when they refuse, these prisoners are 
often beaten and sometimes tortured to death.
    Simply put, there is no freedom of religion, of belief, of 
practice, or the right to profess one's faith. The lack of 
access to religious or humanitarian nongovernmental 
organizations, as well as the United Nations High Commissioner 
for Refugees, further exacerbates this crisis.
    The situation is so bad that tens of thousands of North 
Koreans have fled into China for relief, as we have heard. Some 
refugees return home. Anyone suspected of having had contact 
with Christian organizations while abroad are detained. Many of 
these disappear and are never heard from again.
    The Commission urges the United States Government to take 
advantage of any talks that may pursue in the bilateral 
dialogue to raise U.S. concerns about human rights and the 
humanitarian situation in North Korea.
    Our Commission has, as you know, Senator, focused 
considerable attention on the situation in North Korea. We held 
a public hearing with many of the witnesses you saw today. We 
have had extensive consultations with U.S. experts on Korean-
U.S. and U.S.-China policy. In addition, our Chair, Michael 
Young, has made visits to both South Korea and Japan and 
interviewed those with firsthand knowledge of conditions inside 
North Korea, including many refugees.
    In April of this year, we released our report and 
recommendations on North Korea. They have three main areas of 
concern: First of all, pursuing an international initiative 
against human rights violations in North Korea; secondly, 
protecting North Korean refugees; and third, advancing human 
rights through bilateral contacts. I will briefly refer to 
those, although our full testimony presents those items.
    We have recommended that the United States launch a major 
initiative to expose human rights abuses within North Korea and 
to educate the international community about what is occurring 
there. The collection and presentation of information is key to 
this effort. Silence is not an answer.
    We recommend also that the United States Government should 
utilize the Trilateral Coordination Oversight Group, the TCOG, 
which held its most recent meeting in San Francisco early this 
week, to press Japan and South Korea to raise human rights in 
their discussions with Pyongyang. We do not know, and 
unfortunately, the Assistant Secretary is no longer here, 
whether, in fact, they did that.
    We also believe objective information about the outside 
world must be provided to the people of North Korea.
    As far as refugee relief is concerned, the Commission 
recommends that the United States press the Chinese government 
to recognize as refugees those North Koreans who have fled from 
the DPRK. The key issue here is that the Chinese government 
does not allow the UNHCR to operate in the border region 
between China and North Korea, thereby preventing that 
organization from interviewing those crossing the border or 
assessing their status as refugees.
    The Chinese government's refusal to recognize North Koreans 
who have fled to China as refugees has forced them to remain in 
hiding and many have been exploited and abused as a result. The 
documentation on this is chilling.
    Russia can also be a dangerous place for North Korean 
refugees. We heard something about that from one of the 
witnesses today. It should not be ignored. There are North 
Korean workers in Russia who are forcibly returned. There are 
North Korean refugees who have sought asylum.
    The issue of the refugees who have sought asylum in the 
diplomatic compounds in China is also one that we have 
discussed here today. The Commission wishes to make it clear 
that the North Koreans who fled to China and elsewhere have a 
well-founded fear of persecution if they return to the DPRK.
    Senator Brownback. Ms. Gaer, if we could summarize here, I 
think it would be helpful if you could do that. We do have your 
written testimony.
    Ms. Gaer. I would be happy just to say that, as we heard 
this morning, there are hundreds of thousands of Korean 
Americans and people of Korean ancestry in the United States. 
The North Korean government agreed to resume Korean family 
reunions. The North Korean government should also allow those 
Americans with family ties in North Korea to reunite with their 
parents, siblings, children, and other relatives who are still 
living in that country. That, they should do as a matter of 
right, and this Congress and this government should be pressing 
for that as a matter of right.
    Mr. Chairman, that concludes my testimony and I ask that 
the prepared remarks as well as the Commission's report on the 
DPRK be included in the record. Thank you.
    Senator Brownback. Without objection, and thank you very 
much. Sorry for the truncated time, but we have run long on the 
hearing.
    [The prepared statement of Ms. Gaer appears as a submission 
for the record.]
    Senator Brownback. Ms. Liang-Fenton?

STATEMENT OF DEBRA LIANG-FENTON, VICE CHAIRMAN, U.S. COMMITTEE 
    FOR HUMAN RIGHTS IN NORTH KOREA, MINNEAPOLIS, MINNESOTA

    Ms. Liang-Fenton. Thank you, Senator. Thank you for the 
leadership you have shown on this pressing issue, and I am also 
grateful for the opportunity to speak with you today on behalf 
of the U.S. Committee for Human Rights in North Korea.
    I am presenting testimony submitted by Jack Rendler, Vice 
Chair of the Committee, who sends his apologies and regrets for 
being unable to be with us today.
    Before I begin, I also want to thank you, Senator, 
personally for helping to support the showing of the exhibit of 
the Gil Su family illustrations in the Russell Rotunda. The 
Committee is in possession of 58 of the original illustrations 
drawn by the children of the Gil Su family, who sought asylum 
in the UNHCR office in Beijing last year.
    Senator Brownback. Hold up some of those. This is one where 
he is eating a rat?
    Ms. Liang-Fenton. Yes. This is actually John Gil Su 
himself, the main illustrator, who is eating a rat and snakes, 
which is a condition for many desperate people in North Korea 
who do not have enough to eat.
    As you know, the Kim Han Mee family, the five who sought 
asylum in Shenyang, are the five remaining Gil Su family 
members, who are now also in Seoul.
    This is John Gil Su being forced to confess, and there are 
many others. But we are hoping to get this in the Russell 
Rotunda so that ordinary American citizens and others visiting 
the U.S. Capitol can get a glimpse of what the harsh reality of 
life is like for ordinary citizens in North Korea.
    One last one, escaping across the Tumen River. These are 
two of the brothers of the Gil Su family.
    It may be of interest to you that this Committee is the 
U.S. manifestation of the International Campaign for Human 
Rights in North Korea. There are similar committee structures 
in Canada, France, Germany, and Japan, as well as networks and 
individual actors throughout Europe and Asia.
    The campaign began in December of 1999 at a conference held 
in Seoul by the Citizens Alliance for Human Rights in North 
Korea. In its written submission, the U.S. Committee has 
provided the subcommittee with the following: A summary of what 
is known or can be reliably surmised about human rights in the 
Democratic People's Republic of Korea, a set of detailed 
recommendations for policy and practice, the founding 
declaration for the U.S. Committee for Human Rights in North 
Korea, and Suzanne Scholte, one of our board members, has 
requested that we submit officially her testimony.
    Senator Brownback. It will be in the record, without 
objection.
    Ms. Liang-Fenton. Thank you.
    [The prepared statement of Ms. Scholte appears as a 
submission for the record.]
    Ms. Liang-Fenton. Today, with the mission and purview of 
the subcommittee in mind, I would like to highlight some of the 
more disturbing aspects of human rights in North Korea and the 
impact of those abuses on North Korean refugees in China.
    For over 50 years, the people of the Democratic People's 
Republic of Korea have been denied even the most basic of their 
human rights, denied any contact with the rest of the world, 
and isolated from each other. Human rights violations and 
abuses affect a large majority of the 23 million North Korean 
people. There is precious little specific information available 
about human rights in North Korea since the government refuses 
entry to international human rights groups. This in itself is 
cause for profound concern.
    It is estimated that the DPRK is holding over 200,000 
political prisoners. The government detains and imprisons 
people at will. Political prisoners in North Korea may be held 
in any one of a variety of facilities--detention centers, labor 
rehabilitation centers, juvenile centers, maximum security 
prisons, relocation areas, and sanitoriums. Reeducation means 
forced labor, usually logging or mining under brutal 
conditions. Entire families, including children, are detained 
because of supposed political deviation by one relative. 
Judicial review does not exist, and the criminal justice system 
operates at the behest of the government.
    On July 10, 2002 [sic], the New York Times carried a report 
on one of the grimmer aspects of imprisonment in North Korea, 
forced abortions and infanticide committed regularly and 
routinely by prison officials. The Times recounted instances of 
pregnant women tortured or medically induced to provoke 
miscarriage. If a baby is born, it is left to die or smothered 
with a plastic sheet or bag. Other female prisoners are forced 
to assist with abortions and killings. The most savage 
treatment is apparently reserved for refugees pregnant with 
children fathered in China, who have been forcibly returned to 
North Korea.
    The population is subjected to a constant barrage of 
propaganda by government-controlled media, the only source of 
information. The opinions of North Koreans are monitored by 
government security organizations through electronic 
surveillance, neighborhood and workplace committees, and 
information extracted from acquaintances. Children are 
encouraged to inform on their parents. Independent public 
gatherings are not allowed, and all organizations are created 
and controlled by the government.
    The government forcibly resettles political suspect 
families. Private property does not exist. North Korean 
citizens do not have the right to propose or effect a change of 
government.
    Religious freedom does not exist. The religious activity 
that is allowed appears to have one of two purposes, to deify 
the founder of the DPRK, Kim Il Sung, and by extension his son, 
the current leader, Kim Jung Il, or to demonstrate to faith-
based aid groups that some traditional religious activity is 
tolerated. Alternatively, classes to study Kim Il Sung's 
revolutionary ideology are held throughout the country.
    I am just skipping ahead here to save on time. I want to 
talk a little bit about the North Korean refugees in China. 
Leaving the DPRK is considered treason, punishable by long 
prison terms or execution. Yet, the Voice of America estimates 
that as many as 300,000 North Koreans have fled to China. With 
the onset of famine in the early 1990s, tens of thousands of 
North Koreans, the majority under-nourished women and children, 
crossed into China's Northeastern provinces. There are an 
estimated 140,000 to 150,000 North Korean refugees currently in 
China living in fear of arrest, many women forced into 
prostitution or abusive marriages.
    Refugees are pursued by agents of the North Korean Public 
Security Service and many have reported that the Chinese 
government has been offering awards--sorry. Excuse me. The 
South China Morning Post has reported that the Chinese 
government has been offering rewards to those delivering North 
Korean refugees to police.
    China claims that it considers these refugees to be purely 
economic migrants. While hunger may be one motive for their 
movement, there are other realities. It is the nature of the 
political system in North Korea, with its discriminatory 
distribution of resources, that makes feeding a family 
impossible in some areas. Being hungry does not necessarily 
prevent these people from also feeling oppressed. The criminal, 
political, and social persecution that accompanies forcible 
return to North Korea surely makes these people political 
refugees once they are in China.
    China is a party to the 1951 U.S. Convention Relating to 
the Status of Refugees, under which it has agreed not to expel 
refugees to a country where their life or freedom would be 
threatened.
    To save time, I would like to skip to some action 
recommendations that the Committee would like to put forward 
for consideration.
    One, make lifting the seige of the North Korean people by 
its own government a human rights priority of U.S. policy. As 
he did on his last trip to South Korea, President Bush should 
take every opportunity to express his concern for the plight of 
the North Korean people and his commitment to assisting in the 
restoration of their rights and well-being.
    Two, the protections offered by U.S. law and policy to 
refugee populations in danger should be extended to North 
Korean refugees in China.
    Three, urge the U.N. High Commissioner for Refugees to take 
immediate action to press the PRC to fulfill its obligations 
under the 1951 Convention Relating to the Status of Refugees 
and end its practice of cooperating in the forced repatriation 
of North Koreans.
    Four, find new ways to provide information to the people of 
North Korea. Develop multiple channels of exchange and contact. 
An undetermined number of radios in North Korea can receive 
foreign broadcasts at certain times. Use television broadcasts 
where possible to reach leadership elite. Establish exchange 
programs, beginning with university students and health care 
professionals.
    Call for the formation of an informal Congressional caucus 
on the model of what has been done on Burma, to participate in 
a multinational parliamentary network on human rights in North 
Korea. Such structures have recently been formed within the 
British Parliament and the Japanese Diet.
    Human rights in North Korea should be a constant and 
prominent item on the agenda of the ROK U.S.-Japan Trilateral 
Coordination and Oversight Group.
    Provide humanitarian aid to North Korea while pressing the 
government of Pyongyang to ensure that distribution of such aid 
is monitored by independent international relief organizations 
and concrete progress is made on human rights performance.
    Encourage corporations planning to do business in North 
Korea to develop a code of conduct similar to the Sullivan 
Principles applied in South Africa.
    Provide support for new research and a comprehensive new 
report. We must begin by acknowledging the lack of reliable 
information on any aspect of human freedom in North Korea. We 
know that large numbers of people are imprisoned for their 
beliefs, but we do not know how many, who they are, where they 
are held, how long their sentences are. We know that 
imprisonment involves harsh conditions, including forced labor, 
poor food and health care, and torture, but we do not know just 
how bad it is for which kinds of prisoners at which kinds of 
prisons.
    We know that the government divides the population into 
segments according to perceived levels of loyalty to the regime 
and we know that the distribution of goods and services 
benefits those perceived to be most loyal and fails to serve 
others, but we do not know exactly what the consequences are 
for which people.
    Such reporting will need to be done by an entity with the 
experience and the capacity to get it right and the 
independence and reputation necessary to be heard in Pyongyang. 
This is work that the U.S. Committee for Human Rights in North 
Korea is currently undertaking.
    The time has come to expose this repression, and by so 
doing to make clear that the norms of human rights as defined 
by the United Nations apply as much to the people of North 
Korea as to the people of other countries. Significantly, North 
Korea has ratified the International Covenant on Civil and 
Political Rights and the International Covenant on Economic, 
Social, and Cultural Rights. It, therefore, owes its own 
citizens and the world community a commitment to comply with 
the provisions of these documents and it must be held 
accountable for policies and actions that violate these norms. 
Thank you, Senators.
    Senator Brownback. Thank you very much.
    Ms. Mason?

STATEMENT OF JANA MASON, ASIA POLICY ANALYST, U.S. COMMITTEE ON 
                   REFUGEES, WASHINGTON, D.C.

    Ms. Mason. Thank you, Senator Brownback. I would like to 
thank you and Senator Kennedy for holding this hearing, Senator 
Allen, for your interest and for attending.
    Obviously, this issue, North Korean refugees, particularly 
North Korean refugees in China, raises a lot of political 
sensitivities. We have heard those discussed today. As you are 
aware, refugees themselves create political concerns all over 
the world, but those concerns should not outweigh our human 
rights obligations, so I am very happy that this hearing is 
being held.
    I am going to focus, since witnesses today have covered 
most of the details, I am going to focus on just a few of the 
nitty-gritty aspects of international refugee protection, some 
policies, procedures, and legalities, and the reason I think 
these are important is because these legalities are things that 
the Chinese government, the international community, and even 
our own government, the State Department and the INS, can look 
to as a rationale for not doing all that we can for North 
Korean refugees. So I just want to make sure that we are very 
clear on where we are on these.
    Senator Brownback. If you could make sure to focus on what 
actions you think we should be taking--
    Ms. Mason. Yes.
    Senator Brownback. --that is really what we need to hone in 
on as much as we can.
    Ms. Mason. Yes, I will do that as I discuss each one.
    The first is the question of whether North Koreans are 
refugees. After all we have heard discussed today, we would 
think that it would be a given that any North Korean who 
manages to escape the country would be considered a refugee 
under international refugee law. But I can tell you that when 
the INS starts interviewing, if and when that happens, there 
may be cases where they say because of this reason or because 
of that reason, the person does not qualify under the 
Convention. China, of course, already labels everybody ``food 
migrant'' who comes out. So we need to be clear if we are going 
to push the international community, China, and our own 
government to accept refugee status for these people, we need 
to be clear why they are refugees.
    First, as we have heard from many witnesses, North Korea is 
a highly authoritarian regime with an abysmal human rights 
record. Even without the famine that has racked North Korea 
since the mid-1990s, it is likely that most, if not all, North 
Koreans who manage to escape would have strong claims to 
refugee status. But the famine itself has added to the means by 
which the government can persecute its opponents. Despite 
tremendous reliance on international food aid, the North Korean 
government fails to operate a transparent food distribution 
system and often denies NGOs access to the country's most 
vulnerable people. That is one of the reasons so many NGOs have 
pulled out in recent years.
    The government categorizes its population based on 
perceived loyalty and usefulness to the regime and it channels 
food aid accordingly. The government has also blocked aid to 
parts of the country that have seen anti-government rebellions 
in recent years.
    Now, a government's denial of food aid for political 
reasons can give rise to a valid claim of refugee status, in 
addition to any other forms of persecution the individual might 
claim--religious persecution, some others that we have heard 
about today. But the story does not end there.
    As we have heard on this panel and others, under North 
Korean law, defection or attempted defection is a capital 
crime. The criminal code states that a defector who is returned 
shall be committed to a reform institution for not less than 
seven years. As was mentioned, in cases where the person 
commits ``an extremely grave concern,'' he or she shall be 
given the death penalty. North Korean authorities are 
apparently most concerned with defectors who, while they were 
in China, had contact with South Koreans, Christians, or 
foreigners. This could be one of those grave concerns that ends 
them the death penalty. The government subjects these people, 
if not to execution, then certainly to harsh treatment and 
torture, placement in work camps, and other forms of 
persecution.
    So, therefore, the use of food as a weapon, religious 
persecution, and the fact that they would fear execution or 
very harsh treatment upon return clearly makes these people 
refugees, even with little concrete knowledge about what else 
they may be going under.
    Now, the second issue is China's response to the North 
Korean refugees. As I think was mentioned, China has a treaty 
with North Korea that says that it will return all defectors. 
Notwithstanding that, for a number of years, China informally 
tolerated the presence of a lot of North Koreans, and even to 
some extent provided assistance.
    This situation changed in 1999. That year, China began 
forcibly returning large numbers of North Koreans, and since 
then, they have accelerated every year. Most recently, we have 
what is known as the Strike Hard campaign against crime, 
directed very largely at North Koreans. According to some aid 
groups, China arrested some 6,000 North Koreans in two months 
of 2001 alone, and that is just a snapshot. The overall numbers 
are very unclear.
    China's treatment of North Koreans in its territory is 
clearly a violation of the Refugee Convention that has been 
discussed. It is a violation of Article 33, known as 
nonrefoulement. You cannot return a refugee to any place where 
they could fear persecution.
    China has no domestic law on refugee protection, despite 
the fact that it has signed on to the Convention. It has no 
system for determining refugee status. If it did, it could 
interview them one by one, and if it decided they were not 
refugees, then legally it could send them back. Of course, we 
would have to decide if we thought their system was valid.
    But not only does it have no system of its own, but even 
though UNHCR operates an office in Beijing and asylum seekers 
from other countries can come there and apply for refugee 
status and China cooperates with that, it does not allow UNHCR 
a role with respect to the North Koreans. Other than that one 
highly publicized case last year, the Jung case, North Koreans 
rarely can make it all the way to Beijing or get into the UNHCR 
office.
    The Chinese government has not allowed UNHCR a role with 
North Koreans on the border since 1999. That year, UNHCR did a 
mission to the border and they actually did some interviews and 
determined that some North Koreans were refugees. As a result, 
China reprimanded UNHCR for this action and since then has 
denied them permission even to travel to the border area. This 
is also a violation of the Refugee Convention that says that 
countries have to cooperate with UNHCR in carrying out UNHCR's 
role, which is to supervise the Convention. So China is 
basically attempting to just define these people out of the 
Convention.
    Obviously, the main recommendation we have is the 
international community should pressure China to maintain its 
obligations under the Convention, not return North Koreans to 
North Korea, and allow international aid in China. It is very 
dangerous for any aid worker working in the border area 
assisting them.
    Now, in terms of refoulement, forced return, I also want to 
mention, based on the discussion this morning, that the U.S. 
Committee for Refugees does believe that any embassy or 
consulate that handed over North Koreans to the Chinese 
government would also be committing refoulement. This is a 
fuzzier area. The Refugee Convention says you cannot return or 
expel any refugee to a place where they would be suffering 
persecution. Well, return or expel them from where? We have 
already determined embassies are not technically the soil of 
the country that they represent, but also because of the 
special status of embassies, they are protected against 
interference by the host country.
    So I think because of this unique status, it could be 
argued that if you allowed North Koreans to be taken out by 
Chinese guards, that you would be expelling them or returning 
them to a place where they could face persecution because China 
would then return them to North Korea. So you would be 
subjecting them to return to persecution, an argument that has 
been used by refugee advocates. So I think, clearly, even 
though others may argue otherwise, the U.S. or any government 
whose embassy or consulate allowed the Chinese guards to take 
these people out of the embassy would also be violating the 
Convention and committing refoulement.
    The third point I want to make has to do with South Korea's 
response. We have heard a lot of people say the answer is just 
send them all to South Korea. That is where they want to go 
anyway. No argument that, for the most part, North Koreans from 
China or elsewhere do want to go to South Korea, cultural ties, 
family ties, and South Korea has been extremely generous in 
their response to North Korean refugees and giving them status.
    But I also think we need to mention that there have been 
cases where the South Korean government has been known to 
harshly interrogate North Koreans who it suspects of spying, 
and in some cases has turned away asylum seekers who do not 
have any valuable intelligence information to share. So even 
though I have no doubt that South Korea is able and willing to 
do even more than they are doing now, accepting 500-and-some 
people a year is a far cry from giving automatic status to tens 
of thousands, maybe even hundreds of thousands of people.
    So I think if and when we are able to get the Chinese 
government to open up more and allow passage for the North 
Koreans, I do not think that they can all just flood into South 
Korea at once. I think the international community will have to 
help them absorb more North Koreans and also be willing to do 
our part to take them in.
    And that goes to the last thing that I want to say, which 
is, as Secretary Dewey stated this morning, there are 
procedures to admit people as refugees, but there are some 
glitches. Secretary Dewey kept saying we have to get UNHCR a 
role there. Once we get a role for UNHCR, then we can resettle 
some of these people.
    We need to make clear, yes, a UNHCR role, if China were 
willing to allow that, would certainly facilitate third country 
resettlement, whether in South Korea or elsewhere. But the U.S. 
under its own law does not need UNHCR to bring refugees in. We 
can bring in Priority One cases through embassy identification 
only. The U.S. embassy in any country--yes, North Korea is on 
that short list Secretary Dewey mentioned where they would need 
permission of Washington, but they could get permission for a 
U.S. embassy in any country, including China, to refer to the 
U.S. resettlement program a North Korean who was vulnerable and 
who needed protection.
    Second, since we discussed the P-2 mechanism this morning, 
the U.S., the State Department can set up a Priority Two 
refugee processing system. Theoretically, they could do it for 
North Koreans out of China. Again, you would need China's 
permission. And they could bring in significant numbers of 
North Koreans without any role whatsoever for UNHCR. So we 
should not make a mistake, once again, of using UNHCR as a 
gatekeeper to prevent us to do something that we have the 
mechanism to do by ourselves.
    So, obviously, we need to pressure China to recognize these 
people as refugees, not send them back to North Korea, allow 
aid in, allow safe passage to where they want to go. We need to 
help South Korea absorb large numbers that the U.S. and the 
international community need to be prepared to resettle through 
whatever mechanism they have in their domestic laws, North 
Koreans who have family ties here or for whom there is some 
other reason that this is the best place for them to go. Thank 
you.
    Senator Brownback. That is an excellent statement, very 
thoughtful, very well reasoned.
    I met with some Chinese officials and asked them, how many 
numbers do they think of North Korean refugees are in China, 
and the official said, ``Well, there are none.'' I said, well, 
what would you do if there were any? ``Well, there are not 
any.'' Well, what would you do? Would you make them go back to 
North Korea? ``Well, it would be on an individual case-by-case 
basis.'' They are being pretty disingenuous to me, given the 
facts and the numbers that are in front of us. I am hopeful 
that official is catching some of the summary of this hearing. 
Thank you for a very good statement.
    Senator Brownback. Ms. Massimino?

   STATEMENT OF ELISA MASSIMINO, LAWYERS COMMITTEE FOR HUMAN 
                    RIGHTS, WASHINGTON, D.C.

    Ms. Massimino. Thank you. Thank you so much for inviting 
the Lawyers Committee here today to provide our views and 
recommendations on this important issue.
    I note yesterday, celebrating World Refugee Day, it was a 
great opportunity for us to celebrate the contributions of 
refugees to our own society, but it was also a time for 
reflection about those refugees who, like the North Koreans, 
have been driven out of their homes by their own governments, 
persecuted by so-called host governments like China, and then 
failed by the international system that has been designed to be 
their safety net. So I really am grateful to you--we all are--
for this opportunity to talk about what we can do.
    I would like to focus my remarks on exactly that. There is, 
thanks to you and to other members of Congress and the courage 
of humanitarian workers and those courageous refugees who have 
been able to get out and speak about their experiences, the 
challenge we now face is not one of lack of interest in this 
issue. It is easy to condemn North Korea. What could be easier? 
But to help North Korean refugees is going to cost the United 
States something. It is going to cost some money and it is 
going to cost some diplomatic capital and the question is, what 
is the United States willing to do to alleviate this suffering 
and ensure protection for North Korean refugees?
    First, the administration has to make clear to all 
concerned countries, in particular China and South Korea, that 
resettlement of North Korean refugees in the United States is a 
serious option that we are immediately prepared to pursue. 
While it is certainly true that China should be granting North 
Korean refugees asylum and South Korea should be more 
aggressively offering to take North Korean refugees in, that is 
just not the current reality.
    There are so many times that we have seen the prolonged 
failure of the United States to make an offer of resettlement a 
real option for those for whom no other solution is possible is 
used by other countries involved in the refugee crisis as an 
excuse for inaction. It is way past time for the United States 
to step up and make really clear that we are willing to open 
our doors to these refugees if others will not.
    Second, the United States has to bring more pressure on 
China to abide by its obligations, clearly under the Convention 
and protocol. If it is not willing to grant asylum to North 
Korean refugees, then it must, first and foremost, refrain from 
sending them back to face persecution and death. The Chinese 
government is obligated under the Convention and the protocol 
to facilitate convention for North Korean and for all refugees 
in its territory if it is not willing to grant that protection 
itself.
    The administration should strongly urge China to permit 
UNHCR to operate in the border region between China and North 
Korea so that it can interview those crossing the border and 
assess their status as refugees, and the administration should 
strongly urge China to permit North Korean refugees to leave 
China and either be resettled or be free to seek asylum in 
other countries.
    Third, the administration has to ensure that it is not 
sending China mixed signals about its international obligations 
towards refugees. When questioned last week about the 
administration's view of this diplomatic communication from the 
Chinese government that was sent to embassies in Beijing that 
purportedly demanded that asylum seekers be turned over to 
Chinese authority, I was astonished to read the exchange at the 
press briefing at the State Department where spokesman Richard 
Boucher seemed to go to great lengths to avoid saying that the 
United States would not comply with such demands. The United 
States needs to make very clear to the Chinese government that 
it has no intention of handing asylum seekers over to a 
government whose stated policy is in clear violation of 
international obligations.
    Fourth, the administration must make absolutely sure that 
the United States is in no way complicit in the Chinese 
government's violations of international human rights law being 
perpetrated against the North Korean refugees. The United 
States provides a substantial amount of financial assistance, 
as well as training, to the Chinese to assist them in 
combatting alien smuggling and illegal migration. How sure are 
we that this assistance is not being used by or enabling the 
Chinese government to combat the flight of North Korean 
refugees seeking to escape from oppression and persecution?
    I would urge the Senate to diligently monitor the uses to 
which U.S. anti-smuggling assistance to China is put. North 
Koreans who have fled China have been doubly victimized. I urge 
you to do all you can to ensure that the United States is not 
an unwitting accomplice to that abuse.
    Finally, in order to continue to lead effectively on this 
and other refugee protection issues, the administration has got 
to make sure that our own house is in order. The situation of 
the North Korean people is extremely dire and deserves the 
urgent attention that we are giving it today. But we need not 
look halfway around the world to see injustice being done to 
refugees.
    Yesterday, in his statement commemorating World Refugee 
Day, the President promised that, ``America will always stand 
firm for the non-negotiable demands of human dignity and the 
rule of law.'' But as we sit here today, asylum seekers who 
came to America seeking protection and freedom sit in U.S. 
jails, or worse, are being turned away unjustly without the 
chance to even ask for protection.
    A little over a year ago, many of us sat in this room 
transfixed by the testimony of refugees from Tibet, Cameroon, 
and Afghanistan who came here seeking freedom and found, to our 
shame, handcuffs and a prison uniform. Those present were 
deeply moved, as we have been today, by their courage, their 
love of freedom, and of this, their new home, despite the 
injustices that they suffered under our misguided immigration 
system. Thankfully, following that hearing, which was chaired 
by you, Senator Brownback, a bipartisan group of Senators and 
Representatives, which you led, introduced a bill that would 
restore American values to our asylum system called the Refugee 
Protection Act.
    The National Association of Evangelicals, in its Second 
Statement of Conscience released last month, focused 
specifically on the human rights crises in North Korea and 
Sudan. The statement concludes, and I quote, ``In the case of 
both countries, we will, in particular, work for enactment of 
the Refugee Protection Act, legislation profoundly consistent 
with American traditions of opening our doors to genuine 
refugees of religious and political persecution.''
    The U.S. must lead the way to safety for North Korean 
refugees. It must pass the Refugee Protection Act. I can think 
of no more fitting way to put the President's eloquent words of 
yesterday into practical effect. Thank you.
    Senator Brownback. Thank you very much, and thank you for 
the added plug on the Refugee Protection Act. That is language 
that we need to get moving forward and move with the issue.
    [The prepared statement of Ms. Massimino appears as a 
submission for the record.]
    Senator Brownback. This has been an excellent panel. It has 
been a very thoughtful panel and it has been a lot more, I 
think, than the nuts and bolts of what we need to press forward 
with here. I look forward to working with you and with your 
organizations as we push this issue on forward.
    Some of you were here, I think maybe all of you were here 
for Secretary Dewey's statement and I think we have some work 
to do to press this on forward. But I am hopeful that with the 
visibility that some of this is gaining, some of the interest, 
some of the focus that is taking place, we are going to be able 
to have a better dialogue to get something resolved soon.
    This is happening now. This is on us now. I do not think it 
is one of those things that we can say, we are going to study 
this for six months or this or that. I think it is one of the 
things that we really need to press on at this point in time, 
because people's lives are in the balance at this time. The 
longer we wait, the longer we dawdle, the more people suffer 
and the more people die in the process.
    So I hope we can work together and team up on pressing on 
the legal grounds. I think there is very clear and very 
convincing legal grounds for us to press forward in China and 
with the Chinese in the United States, and what we would do for 
helping these refugees resettle there, here, various places, as 
long as this regime is in place that chooses to so abuse power. 
I thought that was a very well put phrase by Ms. Lee, to so 
abuse power to treat its people so poorly. So I want to thank 
the panel for being here.
    Senator Allen?
    Senator Allen. Thank you, Senator Brownback.
    Thank you all for your eloquent remarks. Ms. Gaer, Felice 
Gaer, my middle name is Felix after my grandfather, whose 
birthday is today. He is no longer alive, but he had been 
imprisoned by the Nazis during World War II because of pathetic 
French resistance. He is from Tunisia, French Tunisian.
    The three of you brought up the food aid, the food 
assistance there and a concern about making sure that the food 
is getting to the people. We heard from our friend from 
Germany, the doctor, earlier about who is getting the food. Do 
you have any way of tracking this aid? Obviously, it is not 
going to be simple. The principle is right. How, as a practical 
matter, could we concretely make sure that the humanitarian 
food aid, is actually getting to the people who are starving? 
Is there any strong, clear guidance you can give us or to 
others who are helping out with this food aid to make sure that 
is being done?
    Ms. Liang-Fenton. I think it is quite simple.
    Senator Allen. All right, good.
    Ms. Liang-Fenton. Pyongyang could allow for the 
humanitarian aid groups to distribute and monitor their food 
packages and to keep records, to get records from the North 
Koreans on where the food is going. I do not think that is too 
much to ask.
    Senator Allen. Would the North Korean government allow 
that?
    Ms. Liang-Fenton. No.
    Senator Allen. What would they say? They would say no. So 
then we are in the dilemma of, since they say no, will there be 
an understanding and recognition that because of their not 
acquiescing to nongovernmental organizations distributing the 
food, that we are doing all that we can, because otherwise all 
we would be doing is helping prop up and feed the tyrants as 
opposed to the people.
    Ms. Liang-Fenton. It is a very controversial issue. It is 
an important issue. It has been reported that North Korea can 
produce enough food to feed its own military. If that is the 
case, and if they are getting--they are getting a lot of food 
from the World Food Programme and others, although that is 
diminishing, I suppose that what you could say is that if some 
of the food is getting to some of the most vulnerable in that 
society, meaning the under-six crowd, that it is worth 
continuing humanitarian aid. But by the same token, we really 
need to be pushing for them to be responsible for their own 
people and for where this food is going. These are coming from 
donor countries. I think that it behooves North Korea to let 
the donor countries in to see where the food is going.
    Senator Allen. That makes sense. Let me ask another 
question that was brought up. You all made so many good points, 
and I have such a short time to ask you all questions. I do 
agree with you that whether it is the issue of the 
nonrefoulement obligations, which is a bedrock principle that 
China must follow. Maybe they have conflicting laws because of 
their arrangements with North Korea. Nevertheless, there are 
bedrock principles that apply, just like the Statute of 
Religious Freedom as a national concept.
    Regardless, you get to this issue that Ms. Massimino 
brought up. You did not number your pages, but you are talking 
about the United States providing a substantial amount of 
financial assistance to the Chinese as well as training to the 
Chinese to assist them in combatting alien smuggling and 
illegal migration. Now, why are we providing that? What is the 
problem in China with illegal migration and alien smuggling 
that the United States would be providing any taxpayer dollars 
for that?
    Ms. Massimino. That, Senator, was initiated and stepped up 
after situations like the Golden Venture boat that brought more 
than 300, I think, Chinese to New York Harbor, and many of them 
fleeing, of course, family planning policies of the PRC.
    Senator Allen. Otherwise known as forced abortion for 
having more than one child.
    Ms. Massimino. Exactly, enforced sterilization. The Clinton 
administration launched a program of training of Chinese law 
enforcement and assistance to help the Chinese prevent people 
from leaving in boats to come to the United States, to be 
blunt. I have not been able to get the kind of assurances I 
would want from our government that that aid is being monitored 
closely enough to make sure--I mean, this category, alien 
smuggling and illegal migrants, from the Chinese perspective, 
as we have heard today, the Chinese would view that as 
applicable to North Korean refugees coming across the border.
    So I am just concerned, and I would hope that is not 
happening and I would want to make sure that we are monitoring 
that aid and that all parts of our government are kind of 
talking together about that to make sure that that is not 
happening.
    Senator Allen. Thank you for bringing that to my attention. 
It was something I was completely unaware of until you brought 
it up. I think that whole program ought to be reviewed, period. 
If it is going to continue, we need to properly monitor it.
    I thank you all, and I especially want to thank Senator 
Brownback for his great leadership on this. We are going to 
work together. We both do serve on the Foreign Relations 
Committee, as well, so from various angles, we want to work to 
make sure that people of North Korea hopefully some day soon 
will enjoy basic human rights. Most importantly, we need to 
move as expeditiously as possible to alleviate the suffering 
and have people settled, hopefully in South Korea, maybe 
Mongolia, and some in the United States. We all need to do our 
part, and I thank you all for your commitment to these 
wonderful principles.
    You have two Senators here, and I believe also Senator 
Kennedy, as well, to make sure the American people know what is 
going on in North Korea. We will be advocates alongside of you. 
Thank you all so much.
    Senator Brownback. That is excellent. Thank you, Senator 
Allen. This is an excellent panel.
    I was reading in Isaiah the other day and the prophet was 
noting that people's prayers were not being answered, and they 
were fasting and they were not being answered, and the prophet 
responded, ``Is this not the fast that I have chosen to loose 
the bonds of wickedness, to undo the heavy burdens, to let the 
oppressed go free, and that you break every yoke. Is it not to 
share your bread with the hungry and that you bring to your 
house the poor who are cast out. If you want to have your 
prayers answered, that is the fast that I want, is that you 
would do those things.'' I think that is pretty good advice to 
us, as well.
    I want to thank the panelists for being here. I think it 
has been an excellent, illuminating hearing, certainly for me.
    I want to note a couple of things will be made a part of 
the record. The first is Ms. Jung Yoon Kim, producer of 
``Shadows and Whispers,'' a documentary on North Korean 
refugees living in China that was shown on ABC News 
``Nightline'' as a three-part series a few weeks back, she has 
a statement for the record.
    Senator Brownback. The second is a statement for the record 
from UNHCR.
    Finally, I would like to ask that a letter from World 
Relief, a subsidiary of the National Association of 
Evangelicals, be made a part of the record. This letter notes 
World Relief's willingness to assist with resettling refugees 
from North Korea.
    The record will remain open the requisite number of days 
for additional comments.
    The hearing is adjourned.
    [Whereupon, at 1:08 p.m., the subcommittee was adjourned.]
    [Submissions for the record follow.]
    [GRAPHIC] [TIFF OMITTED] 86829.001
    
    [GRAPHIC] [TIFF OMITTED] 86829.002
    
    [GRAPHIC] [TIFF OMITTED] 86829.003
    
    [GRAPHIC] [TIFF OMITTED] 86829.004
    
    [GRAPHIC] [TIFF OMITTED] 86829.005
    
    [GRAPHIC] [TIFF OMITTED] 86829.006
    
    [GRAPHIC] [TIFF OMITTED] 86829.007
    
    [GRAPHIC] [TIFF OMITTED] 86829.008
    
    [GRAPHIC] [TIFF OMITTED] 86829.009
    
    [GRAPHIC] [TIFF OMITTED] 86829.010
    
    [GRAPHIC] [TIFF OMITTED] 86829.011
    
    [GRAPHIC] [TIFF OMITTED] 86829.012
    
    [GRAPHIC] [TIFF OMITTED] 86829.013
    
    [GRAPHIC] [TIFF OMITTED] 86829.014
    
    [GRAPHIC] [TIFF OMITTED] 86829.015
    
    [GRAPHIC] [TIFF OMITTED] 86829.016
    
    [GRAPHIC] [TIFF OMITTED] 86829.017
    
    [GRAPHIC] [TIFF OMITTED] 86829.018
    
    [GRAPHIC] [TIFF OMITTED] 86829.019
    
    [GRAPHIC] [TIFF OMITTED] 86829.020
    
    [GRAPHIC] [TIFF OMITTED] 86829.021
    
    [GRAPHIC] [TIFF OMITTED] 86829.022
    
    [GRAPHIC] [TIFF OMITTED] 86829.023
    
    [GRAPHIC] [TIFF OMITTED] 86829.024
    
    [GRAPHIC] [TIFF OMITTED] 86829.025
    
    [GRAPHIC] [TIFF OMITTED] 86829.026
    
    [GRAPHIC] [TIFF OMITTED] 86829.027
    
    [GRAPHIC] [TIFF OMITTED] 86829.028
    
    [GRAPHIC] [TIFF OMITTED] 86829.029
    
    [GRAPHIC] [TIFF OMITTED] 86829.030
    
    [GRAPHIC] [TIFF OMITTED] 86829.031
    
    [GRAPHIC] [TIFF OMITTED] 86829.032
    
    [GRAPHIC] [TIFF OMITTED] 86829.033
    
    [GRAPHIC] [TIFF OMITTED] 86829.034
    
    [GRAPHIC] [TIFF OMITTED] 86829.035
    
    [GRAPHIC] [TIFF OMITTED] 86829.036
    
    [GRAPHIC] [TIFF OMITTED] 86829.037
    
    [GRAPHIC] [TIFF OMITTED] 86829.038
    
    [GRAPHIC] [TIFF OMITTED] 86829.039
    
    [GRAPHIC] [TIFF OMITTED] 86829.040
    
    [GRAPHIC] [TIFF OMITTED] 86829.041
    
    [GRAPHIC] [TIFF OMITTED] 86829.042
    
    [GRAPHIC] [TIFF OMITTED] 86829.043
    
    [GRAPHIC] [TIFF OMITTED] 86829.044
    
    [GRAPHIC] [TIFF OMITTED] 86829.045
    
    [GRAPHIC] [TIFF OMITTED] 86829.046
    
    [GRAPHIC] [TIFF OMITTED] 86829.047
    
    [GRAPHIC] [TIFF OMITTED] 86829.048
    
    [GRAPHIC] [TIFF OMITTED] 86829.049
    
    [GRAPHIC] [TIFF OMITTED] 86829.050
    
    [GRAPHIC] [TIFF OMITTED] 86829.051
    
    [GRAPHIC] [TIFF OMITTED] 86829.052
    
    [GRAPHIC] [TIFF OMITTED] 86829.053
    
    [GRAPHIC] [TIFF OMITTED] 86829.054
    
    [GRAPHIC] [TIFF OMITTED] 86829.055
    
    [GRAPHIC] [TIFF OMITTED] 86829.056
    
    [GRAPHIC] [TIFF OMITTED] 86829.057
    
    [GRAPHIC] [TIFF OMITTED] 86829.058
    
    [GRAPHIC] [TIFF OMITTED] 86829.059
    
    [GRAPHIC] [TIFF OMITTED] 86829.060
    
    [GRAPHIC] [TIFF OMITTED] 86829.061
    
    [GRAPHIC] [TIFF OMITTED] 86829.062
    
    [GRAPHIC] [TIFF OMITTED] 86829.063
    
    [GRAPHIC] [TIFF OMITTED] 86829.064
    
    [GRAPHIC] [TIFF OMITTED] 86829.065
    
    [GRAPHIC] [TIFF OMITTED] 86829.066
    
    [GRAPHIC] [TIFF OMITTED] 86829.067
    
    [GRAPHIC] [TIFF OMITTED] 86829.068
    
    [GRAPHIC] [TIFF OMITTED] 86829.069
    
    [GRAPHIC] [TIFF OMITTED] 86829.070
    
    [GRAPHIC] [TIFF OMITTED] 86829.071
    
    [GRAPHIC] [TIFF OMITTED] 86829.072
    
    [GRAPHIC] [TIFF OMITTED] 86829.073
    
    [GRAPHIC] [TIFF OMITTED] 86829.074
    
    [GRAPHIC] [TIFF OMITTED] 86829.075
    
    [GRAPHIC] [TIFF OMITTED] 86829.076
    
    [GRAPHIC] [TIFF OMITTED] 86829.077
    
    [GRAPHIC] [TIFF OMITTED] 86829.078
    
    [GRAPHIC] [TIFF OMITTED] 86829.079
    
    [GRAPHIC] [TIFF OMITTED] 86829.080
    
    [GRAPHIC] [TIFF OMITTED] 86829.081
    
    [GRAPHIC] [TIFF OMITTED] 86829.082
    
    [GRAPHIC] [TIFF OMITTED] 86829.083
    
    [GRAPHIC] [TIFF OMITTED] 86829.084
    
    [GRAPHIC] [TIFF OMITTED] 86829.085
    
    [GRAPHIC] [TIFF OMITTED] 86829.086
    
    [GRAPHIC] [TIFF OMITTED] 86829.087
    
    [GRAPHIC] [TIFF OMITTED] 86829.088
    
    [GRAPHIC] [TIFF OMITTED] 86829.089
    
    [GRAPHIC] [TIFF OMITTED] 86829.090
    
    [GRAPHIC] [TIFF OMITTED] 86829.091
    
    [GRAPHIC] [TIFF OMITTED] 86829.092
    
    [GRAPHIC] [TIFF OMITTED] 86829.093
    
    [GRAPHIC] [TIFF OMITTED] 86829.094
    
    [GRAPHIC] [TIFF OMITTED] 86829.095
    
    [GRAPHIC] [TIFF OMITTED] 86829.096
    
    [GRAPHIC] [TIFF OMITTED] 86829.097
    
    [GRAPHIC] [TIFF OMITTED] 86829.098
    
    [GRAPHIC] [TIFF OMITTED] 86829.099
    
    [GRAPHIC] [TIFF OMITTED] 86829.100
    
    [GRAPHIC] [TIFF OMITTED] 86829.101
    
    [GRAPHIC] [TIFF OMITTED] 86829.102
    
    [GRAPHIC] [TIFF OMITTED] 86829.103
    
    [GRAPHIC] [TIFF OMITTED] 86829.104
    
    [GRAPHIC] [TIFF OMITTED] 86829.105
    
    [GRAPHIC] [TIFF OMITTED] 86829.106
    
    [GRAPHIC] [TIFF OMITTED] 86829.107
    
    [GRAPHIC] [TIFF OMITTED] 86829.108
    
                                   - 

</pre></body></html>
